<html>
<title> - EXAMINING AMERICA'S ROLE IN THE WORLD</title>
<body><pre>[Senate Hearing 114-768]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-768

                 EXAMINING AMERICA'S ROLE IN THE WORLD

=======================================================================

                                 HEARING
                               BEFORE THE
                      COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE
                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                              __________

                             MAY 12, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                      U.S. GOVERNMENT PUBLISHING OFFICE                    
29-501 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b7c6b745b786e686f737e776b3578747635">[email&#160;protected]</a>                         
                         
                         


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2

Baker, Hon. James A., III, Former Secretary of State, Houston, TX     4
    Prepared statement...........................................     5
    Response of Hon. James A. Baker III to a Question Submitted 
      by Senator Tim Kaine.......................................    44

Donilon, Hon. Thomas E., Former National Security Advisor, 
  Washington, DC.................................................     6
    Prepared statement...........................................     9


                             (iii)        

  

 
                 EXAMINING AMERICA'S ROLE IN THE WORLD

                              ----------                              


                         THURSDAY, MAY 12, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Rubio, Flake, 
Gardner, Paul, Cardin, Menendez, Coons, Udall, Murphy, and 
Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Senate Foreign Relations Committee will 
come to order.
    We are extremely excited about the hearing we are having 
today. We thank both of our witnesses for taking the time to be 
with us. I do not think this hearing could come at a better 
time, when the Nation is beginning more fully to focus on our 
place in the world. And, obviously, the presidential races that 
are underway are going to heighten that focus as time goes on.
    Both of our witnesses have served in very, very substantial 
roles in administrations, and have had to deal with the daily 
crises that occur within an administration. And the Senate 
Foreign Relations Committee, which is in many ways removed from 
that, should be a place where we look at those activities and 
yet are able to have some distance and look at some long-range 
issues that we need to deal with and just where we are going to 
be in the world. And so, this hearing is a step in that 
direction.
    Again, I know we are all thrilled to have you both. And, 
during this hearing, what I would love to hear is, first of 
all, some of your thoughts with our current crises, everything 
from Russian aggression to what is happening in the Middle 
East, to transnational terrorism, upheaval in Europe, the North 
Korean saber-rattling, and what is happening in the South China 
Sea.
    Second, in light of these events, it is my hope we will 
explore their thinking as to--your thinking as to what core 
U.S. interests are. I think that is something that we do not 
spend enough time focused on, when we begin to take actions.
    Third, I would like to get your perspective on the tools in 
our toolbox that are most effective in accomplishing our goals 
and securing a future role, whether it is our military, our 
economic influence, trade, engagement in multilateral 
organizations and alliances. What is the right balance in using 
these tools, and what are their costs and benefits?
    Fourth, I would love to hear how you feel about our 
indebtedness at home and the inability to find a solution for 
the unfunded liabilities that we have and the pressures that 
that places on our ability to deal with foreign policy and to 
deal with issues around the world in the most appropriate way.
    And then, finally, both of you--I know that both of you are 
deep policy people and have made great things happen for our 
country in your careers. You have to have a little politician 
in you to do what you do. And so, you are very aware of where 
the American people are today, where they are wondering how 
much we should be doing overseas, and a lot of focus on what 
ought to be happening at home.
    And so, all five of those are topics that I hope we will 
address today. Again, I thank you both for being here.
    And, with that, I will turn to our distinguished member--
Ranking Member, Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you very much, Mr. Chairman. I 
very much appreciate you convening this hearing.
    And I want to thank Secretary Baker and Mr. Donilon for 
your incredible years of public service. To me, this is a real 
opportunity, to have you before our committee, so that we can 
gain from your experience and try to do what we can to make 
America stronger. So, we thank both of you very much for being 
here today.
    This hearing is titled America's Role in the World. And we 
certainly have enough challenges. And there is certainly a need 
for U.S. leadership globally.
    When I look at America's strength, yes, I see our military, 
the strongest military in the world, the best soldiers in 
command, the best military equipment. But, to me, the strength 
of America and its influence globally is in our ideals. It is 
what we stand for. It is the--our standing for democracy and 
good governance and rule of law. And we look at some of the 
actions that we have taken. In my years in the Congress, I have 
been very active in the OSCE, the Helsinki Commission. And I 
look at that founding principle that a country's security is 
more than protecting its borders; it is its economic 
opportunities and its respect for basic human rights. And to 
me, that has been one of the guiding principles.
    When you look at other countries that are flexing their 
military, to me they will never succeed in accomplishing a more 
peaceful, stable world, because they do not have the commitment 
towards democracy and good governance. I look at Russia's 
engagement globally, I look at what China is doing in its--in 
the seas, I look at North Korea. They certainly are not 
countries that are taking on an international responsibility 
for a more peaceful and stable world.
    So, what are the pillars that we should be using? What are 
the tools, as the Chairman said, in order to accomplish our 
objectives? And I take a look at this, and I come up with 
certain pillars that we really need to underscore.
    One is we have to work to form coalitions and partnerships. 
That is not easy. Americans are not always patient. But it is 
very important to work with other countries with like 
objectives. And that means that we have more credibility and 
more effectiveness in accomplishing our results.
    I think we need to continue our strong demand for 
nonproliferation of weapons of mass destruction, particularly 
nuclear weapons. We must make it clear that the use of our 
military should be used only when every other options has been 
explored. That should be the--a matter of last resort.
    And, to me, the key pillar--and this will not come as 
surprise to my colleagues--is that we need to prioritize and 
support good governance, democracy, and basic human rights, 
transparency, anticorruption, freedom of the press, the ability 
to oppose the government without ending up in jail, the freedom 
of religion. The status of civil societies, to me, is always a 
good indication on how well a country is doing. Free and fair 
elections and a government that protects all of its people.
    And when leaders fail to provide good governance, we see 
the consequences. We see the consequences in conflict, where 
innocent people are put at risk. And we see the flood of 
displaced individuals and refugees. We see a vacuum, which is a 
breeding ground for radicalization and recruitment to terrorist 
organizations. And we pay a heavy price for that.
    And just two examples. We are all concerned about the fate 
of Ukraine. Clearly, the culprit here is Russia and its 
interference in an independent country. And we have all spoken 
out, and we have gotten Europe to work with us to try to 
isolate Russia. But Ukraine has to establish good governance, 
and they have not been able to do that, to date. And that is 
going to be critical for their survival.
    And then, in Syria, we know that the Assad regime cannot 
have the credibility. It does not represent all the people. As 
a result, we have a--not only a civil conflict, but we have 
breeding grounds for ISIL.
    So, to me, a common thread is woven through much of the 
world's ills as a crisis in governance and an overt willingness 
to ignore the rule of law. And I really look forward to the 
conversation we are having today with two of the real champions 
in the history of America on foreign policy.
    The Chairman. Well, we are all very thrilled to have you. 
Secretary Baker is, to me, a model of public service, someone 
that I have looked up to for a long time. And I really 
appreciate him taking his time to be with us today. I know he 
has served in the public arena off and on multiple times, with 
great distinction. Tom Donilon, someone I have gotten to know 
over the course of the first few years of the Obama 
administration. And, while I do not know him as well, I know he 
is highly esteemed, and we could not be more fortunate than to 
have the two of you here today.
    If you would summarize your comments in about five minutes. 
We are certainly not going to cut you off. I have read your 
written testimony. And, without objection, it will be entered 
into the record. So, you can just summarize, if you would, in 
about five minutes or so, and then we look forward to asking 
questions.
    And if you would start, Secretary Baker, I would appreciate 
it.

             STATEMENT OF HON. JAMES A. BAKER III, 
           FORMER SECRETARY OF STATE, HOUSTON, TEXAS

    Mr. Baker. Thank you, Mr. Chairman. It is a pleasure to be 
here for you and ----
    The Chairman. Microphone.
    Mr. Baker [continuing]. Oh, sorry--and other distinguished 
members of the committee. It is a real pleasure for me, 
needless to say, to be once again back before this committee 
that I appeared before so many times when I was Secretary of 
State.
    I have been asked to keep these remarks brief, and I will, 
so that we can spend most of our time talking about the issues 
that you have articulated.
    Let me say a few words, to begin, about America's current 
role on the world stage, and then suggest an approach on U.S. 
foreign policy that is best suited for the country.
    Let me begin by putting America's place in the world today 
into perspective. More than 70 years after the conclusion of 
World War II, the United States remains the strongest nation in 
the world, not just militarily. We have a dynamic and resilient 
economy. We do have the most powerful military in the world. 
And we have the widest array of strategic alliances, ranging 
from NATO to ASEAN.
    Do we have problems? Indeed, we do. Domestically, our 
economy continues to sag. Internationally, we are losing some 
of the respect as a global leader that we earned over the 
course of decades. And as the current presidential election is 
demonstrating, Americans are losing faith in institutions, from 
Washington to Wall Street, that have aided our advancement over 
the years.
    At the same time, much of the rest of the world, countries 
like China, Brazil, and India, for instance, are catching up 
with us. But that is largely because they have adopted, or are 
adopting, our paradigm of free markets. And that should not, 
therefore, be viewed negatively, in my view, but as a positive 
trend, because it is helping hundreds of millions of people 
rise from poverty.
    Still, it is my view, notwithstanding the fact that we have 
slipped a little in recent years, that we should remain the 
world's preeminent leader for the foreseeable future. We should 
accept that responsibility, and not shrink from it, because if 
we do not exercise power, other people will. We have simply too 
much at stake in the world today to walk away from it, even if 
we could.
    Other countries depend upon our leadership. This is most 
obviously true of our allies in Western Europe and East Asia 
and elsewhere. But, frankly, even countries that are sometimes 
anything but friendly seek our engagement. Does that mean we 
are perfect? Of course not. But in the major global conflicts 
over the last century--World War I, World War II, and the Cold 
War--the United States played a historic role in defeating 
imperialism and totalitarianism.
    So, the question is, How should the United States engage in 
foreign policy? How do we formulate policies that best serve 
the United States as we begin to approach what many consider to 
be the end of the unipolar era?
    First of all, I want to say that, in my view--and this has 
been my view throughout my public service, back before I was 
Secretary of State--international leadership does not involve a 
choice between sending in the 101st Airborne or doing nothing. 
We can lead politically, diplomatically, and economically 
without putting American boots on the ground.
    I believe that the United States should chart a course 
based on a paradigm that I would refer to as ``selective 
engagement.'' This approach, which would continue the 
internationalism that our Nation has embraced since 1945, would 
recognize that the United States has core interests in the 
world, and that we should protect them. At the same time, it 
would also acknowledge the reality that our power is limited. 
Using selective engagement as a blueprint, we can identify 
America's vital interests in the world, and then advance them 
using all of the tools available to our foreign policy, 
including our many strategic alliances, our economic clout, our 
diplomatic assets, and, as a last resort, our military.
    So, what are those vital interests? Well, they range from 
combating international terrorism to managing the emergence of 
China as a global power, and from stemming the proliferation of 
weapons of mass destruction to expanding free trade. The 
approach I suggest does not fall easily into traditional 
categories of foreign policy; that is, either realism or 
idealism. I think it would contain, and can contain, the best 
elements of both. And it represents one of our most distinctive 
national characteristics. We are, after all, a practical 
people, less interested in ideological purity than in solving 
problems.
    The practice of selective engagement should be informed by 
what I would refer to as ``a pragmatic idealism.'' While firmly 
grounded in values, selective engagement would understand and 
appreciate the complexity of the real world, which is a world 
of hard choices and painful tradeoffs. This is the real world 
in which we must live and decide and act with due regard, of 
course, for our principles and our values. It would require 
that there be an overriding national interest at stake, 
particularly if any military action were contemplated.
    Such a balanced approach, Mr. Chairman, I believe can help 
us avoid both the cynicism of realism and the impracticality of 
idealism. It promises no easy answers or quick fixes. But such 
an approach does, I am convinced, at least offer our surest 
guide and our best hope for navigating this great country of 
ours safely through this precarious period of unparalleled risk 
and opportunity in world affairs.
    I look forward to addressing your questions. Thank you.
    [Mr. Baker's prepared statement follows:]


               Prepared Statement of James A. Baker, III

    Chairman Corker, Ranking Member Cardin, distinguished members of 
the Committee on Foreign Relations, it is a distinct honor to once 
again be back before this committee.
    I have been asked to keep these remarks brief so we can spend more 
time discussing global affairs. So let me say just a few words about 
America's current role on the world stage and then suggest an approach 
to U.S. foreign policy that I believe is best suited for our nation.
    Let me start by putting America's place in the world today into 
perspective.
    More than 70 years after the conclusion of World War II, the United 
States remains the strongest nation in the world. We have a dynamic and 
resilient economy, the most powerful military and the widest array of 
strategic alliances, ranging from NATO to ASEAN. Do we have problems? 
Indeed, we do. Domestically, our economy continues to sag. 
Internationally, we are losing some of the respect as a global leader 
that we earned over the course of decades. And as the current 
presidential election is demonstrating, Americans are losing faith in 
institutions--from Washington to Wall Street--that have aided our 
advancement over the years.
    At the same time, much of the rest of the world--countries like 
China, Brazil and India--are catching up with us, largely because they 
are adopting our paradigm of free markets. And that should be viewed as 
a positive trend because it is helping hundreds of millions of people 
rise from poverty.
    Still, we should remain the world's preeminent leader for the 
foreseeable future. We should accept that responsibility, not shrink 
from it. If the United States does not exercise power, others will. We 
simply have too much at stake in the world to walk away from it, even 
if we could.
    Other countries depend on our leadership. This is most obviously 
true of our allies in Western Europe, East Asia, and elsewhere. But 
even countries that are sometimes anything but friendly often seek our 
engagement.
    Does this mean that we are perfect? Of course not.
    But in the major global conflicts of the last century--(World War 
I, World War II, and the Cold War)--the United States played a historic 
role in defeating imperialism and totalitarianism.
    So the question is: How should the United States engage in foreign 
policy? How do we formulate policies that best serve the United States 
as we begin to approach what many consider to be the end of the 
unipolar era?
    First of all, international leadership doesn't involve a choice 
between sending in the 101st Airborne or doing nothing. We can lead 
politically, diplomatically and economically without putting American 
boots on the ground.
    I believe that the United States should continue to chart its 
course based on the paradigm I would call ``selective engagement.'' 
This approach, which would continue the internationalism that our 
nation has embraced since 1945, would recognize that the United States 
has core interests in the world and must protect them. At the same 
time, it would also acknowledge the reality that our power is limited.
    Using ``selective engagement'' as a blueprint, we can identify 
America's vital interests in the world and then advance them using all 
of the tools available to our foreign policy--including our many 
strategic alliances, our economic clout, our diplomatic assets and, as 
our last resort, our military.
    So what are those vital interests? They range from combatting 
international terrorism to managing the emergence of China as a global 
power and from stemming the proliferation of Weapons of Mass 
Destruction to expanding free trade.
    The approach I suggest does not fall easily into traditional 
categories of foreign policy--that is: ``realism'' or ``idealism.'' It 
contains the ``best elements of both.'' And it represents one of our 
most distinctive national characteristics: We are a practical people 
less interested in ideological purity than in solving problems.
    The practice of ``selective engagement'' should be informed by 
``pragmatic idealism.'' While firmly grounded in values, ``selective 
engagement'' would understand and appreciate the complexity of the real 
world--a world of hard choices and painful trade-offs. This is the real 
world in which we must live, decide, and act, with due regard, of 
course, for our principles and values.
    It would require that there be an overriding national interest at 
stake, particularly if military action is contemplated.Such a balanced 
approach, I believe, can help us avoid both the cynicism of ``realism'' 
and the impracticality of ``idealism.'' And it promises no easy answers 
or quick fixes.
    But such an approach does, I am convinced, offer our surest guide 
and best hope for navigating our great country safely though this 
precarious period of unparalleled opportunity in world affairs.
    Thank you.


    The Chairman. National Security Advisor Donilon.

 STATEMENT OF HON. THOMAS E. DONILON, FORMER NATIONAL SECURITY 
                   ADVISOR, WASHINGTON, D.C.

    Mr. Donilon. Thank you very much, Mr. Chairman and Ranking 
Member, for giving me the opportunity to be here today.
    It is a privilege to be here next to Secretary Baker. 
Secretary Baker is one of the most influential and honorable 
public servants of our time. The title of one of his books 
quotes advice from his grandfather, which is entitled ``Work 
Hard, Study, and Keep Out of Politics.'' As a country, we are 
fortunate that Secretary Baker did not heed that advice, in my 
judgment.
    The world today is characterized by an unusually large 
number of unstable and volatile situations. It is a level of 
volatility we have only seen twice since World War II. And the 
volatility and instability is rooted in four broad political 
trends, which I will describe briefly.
    First, there is a systemic breakdown of state authority in 
the Middle East. Indeed, in the years since the Arab 
revolutions, beginning in early 2011, a number of Arab states 
have become out-and-out failed states, from Libya to Yemen to 
Syria, and a full range of other states have become at 
different stages of failure. They have lost the ability to 
control what goes on in their borders, to maintain a monopoly 
on the use of force, and, as a result, vast ungoverned spaces 
exist across the region from Libya to Pakistan, creating power 
vacuums and paving the way for the rise of groups like ISIS. 
These upheavals have put extreme pressure on important U.S. 
partners and fueled an unprecedented migrant crisis in Europe, 
threatening the very integrity of the EU. The primary cause of 
this breakdown, in my judgment, is a profound failure of 
governance on the part of Arab regimes over a period of 
decades. And, Ranking Member Cardin, you described this, I 
think. This really is the root of what is going on in the 
Middle East today, a profound failure of governance.
    The second trend is the reemergence of great-power 
competition. For roughly 25 years after the fall of the Berlin 
Wall, the world enjoyed an era marked by productive and 
constructive relationships among and between the great powers. 
None of the great powers regarded each other as hostile or 
adversaries at that point. That period has ended, in my 
judgment. It ended in 2014, when Russia invaded Ukraine and 
annexed Crimea.
    A third source of volatility is the global reaction to the 
profound economic and political transitions underway in China. 
For years, China and its unprecedented rise has served as an 
engine of global growth--global economic growth--and, 
unsurprisingly, then, the recent slowdown in the China economy 
has had a number of disruptive impacts.
    On the diplomatic and security fronts, the United States 
and China have continued to cooperate on a number of 
significant issues, like climate change and Iran and North 
Korea. That said, China's provocative behavior in the South 
China Sea, including the militarization of land formations, is 
significantly destabilizing.
    The United States and China have to get this relationship 
right. As Professor Graham Allison, who has testified in front 
of this committee on a number of occasions, has noted, over 
history, the dynamic between established powers and rising 
powers, emerging powers, has--in terms of outcome, most likely 
has ended in war. This is a classic Thucydides Trap, but, in my 
judgment, international relations, of course, is not a subset 
of physics, and our countries' leaders on both sides can avoid 
conflict through steady engagement and a concerted effort to 
avoid strategic miscalculation.
    The last trend I will mention is the geopolitical impact of 
sustained low oil prices since mid-2014. The impacts have been 
vast, and they have been substantial and will be long-lasting, 
in my judgment. Oil-exporting nations that lack significant 
financial reserves, like Venezuela, Nigeria, Iraq, have been 
severely pressured. And even exporting nations with significant 
reserves, such as the Gulf states and Russia, have come under 
serious economic strain. Indeed, just in the last week, we have 
seen Saudi Arabia announce a major reorientation of their 
economy.
    Some look at this increasingly volatile and unstable 
environment, and draw a simple conclusion--and I agree with 
Secretary Baker on this, and I reject this thesis--that the 
United States and its ability to shape the world are in 
decline. And again, I flatly reject that notion. The idea that 
America is in decline does not stand up to any rigorous 
analysis of our national balance sheet of strategic strengths. 
No nation can match our comprehensive set of enduring 
strengths, including a resilient and diverse economy, bountiful 
resources, a unique global network of alliances, unmatched 
military strength, a culture of entrepreneurship and 
innovation, and a long record of international leadership. The 
extreme pessimism we hear in some quarters, and the general 
lack of appreciation of U.S. strengths, is not only inaccurate, 
in my judgment, it is dangerous, because it leads you to poor 
policy choices.
    I will close with just listing four or five challenges for 
the next President.
    First, economic growth. There are not a lot of iron laws in 
history, but one of them certainly is that no nation can 
maintain its diplomatic or military primacy without maintaining 
its economic vitality. Our economy has recovered significantly 
since the 2008 crash, but continued insecurity--economic 
insecurity--is fueling calls for retrenchment, which would both 
undercut U.S. global leadership and weaken our economy. To 
maintain our prosperity, there are a number of things that we 
can do, including investing in national infrastructure, 
defending our edge in R&D, and supporting long--our long-term 
demographic advantage through a sensible immigration policy. 
The bottom line here is that the most important national 
security challenge for the next President is to maintain and 
extend economic growth and prosperity in the United States.
    Second, terrorism. And I will finish up here. We have 
significantly reduced the threat from al Qaeda, and we are 
successfully pressuring ISIS in Syria and Iraq. But the overall 
terror threat has evolved and metastasized. And, frankly, the 
terror threat has entered a new and dangerous phase. ISIS is 
moving to an external focus with respect to its threat. It is 
expanding into other regions, and attempting to carry out 
attacks in Europe and around the world. The return of foreign 
fighters to Europe and the attacks on Paris and Brussels have 
highlighted how unprepared Europe is to address this threat. 
Despite the transnational nature of the terrorist threat, 
European responses remain cloistered behind national borders. 
We must press them to do better. My own judgment is that the 
failure of Europe to successfully deal with the terrorist 
threat, in terms of information-sharing, intelligence-sharing, 
securing the borders, putting appropriate resources against 
this problem, is a clear and present danger to the United 
States.
    Third, cybersecurity. Every year, Americans rely more on 
goods and services that are connected to the Internet. These 
advances represent a tremendous boon for our economy, but they 
also increase our exposure to cyberattacks by sophisticated 
state and nonstate actors. President Obama has asked me to 
chair a National Commission on Enhancing National 
Cybersecurity, and we will be putting out a report in December. 
And it is really a transition report for the next President 
with respect to a look at this problem for the next 5 to 10 
years.
    Next is Asia. And my judgment is that the next President 
should build on President Obama's rebalance to Asia. Our 
alliance system in Asia remains rock solid, but our allies seek 
even greater U.S. engagement, as Secretary Baker indicated, in 
the region, economically, militarily, and diplomatically. 
Ratifying the Trans-Pacific Partnership, the TPP, which is the 
economic centerpiece of our rebalance, is central to cementing 
our leadership in the region.
    And last, North Korea presents, in my judgment, the most 
serious security challenge we face in Asia and the most serious 
proliferation challenge we face globally. North Korea has 
undertaken, in the words of one analyst, a nuclear sprint in 
recent months, seeking an ICBM that could reach the United 
States with a miniaturized nuclear weapon. In my judgment, the 
situation in North Korea is on a path to become a first-last 
crisis for the United States and its allies.
    With that, Mr. Chairman, ranking member, I will conclude. I 
Look forward to your questions.
    And again, Secretary Baker, it is a real privilege to be 
here with you today.
    [Mr. Donilon's prepared statement follows:]


                Prepared statement of Thomas E. Donilon

    Chairman Corker, Ranking Member Cardin, and distinguished members 
of the committee: thank you for giving me the opportunity to testify 
before you today. It is a privilege to be here alongside Secretary 
Baker, one of the most influential and honorable public servants of the 
last half-century. Secretary Baker once wrote that his grandfather 
counseled him to ``keep out of politics.'' \1\ As a country, we are 
fortunate that Secretary Baker did not heed that advice.
---------------------------------------------------------------------------
    \1\ James A. Baker III with Steve Fiffer, ``Work Hard, Study . . .  
and Keep Out of Politics!'' Putnam, 2006.
---------------------------------------------------------------------------
    This morning I will comment on the strategic context in which the 
United States must operate today, beginning by highlighting four of the 
most important macro trends that inform the current strategic 
environment. I believe that our nation remains uniquely well-positioned 
to contend with these trends. And last, I will address several specific 
challenges that we confront at this moment. If we can address these 
challenges, and I believe that we can, the United States will continue 
to be the world's leading and most powerful nation for a long time to 
come.
                      global trends and challenges
    The world is currently characterized by an unusually large number 
of unstable and volatile situations. It is a level of volatility we 
have seen only twice since World War II.
    CIA Director Brennan discussed this development in a speech at the 
end of last year. He noted, ``In the past three years, there have been 
more outbreaks of instability than at any time since the collapse of 
the Soviet Union, matching the rate we saw during decolonization in the 
1960s. . . . This has not just been a period of protests and government 
change, but of violent insurgency, and in particular of breakdowns in 
many states' ability to govern.'' \2\ Challenges like these are 
compounded by the seemingly instantaneous pace of change in today's 
world.
---------------------------------------------------------------------------
    \2\ Central Intelligence Agency, ``Brennan Delivers Remarks at the 
Center for Strategic & International Studies Global Security Forum 
2015,'' November 16, 2015.
---------------------------------------------------------------------------
    The current high levels of instability are rooted in four broad 
trends:
    The first is the systematic breakdown of state authority in the 
Arab Middle East. In the years since the Arab revolutions beginning in 
2011, a number of states have become failed or near-failed states. From 
Syria to Libya to Yemen, states have lost the ability to control those 
who operate within their borders and to maintain a monopoly on the use 
of force. As a result, vast ungoverned spaces now exist across the 
region, paving the way for the rise of ISIS and other terrorist 
organizations. And these upheavals have put extreme pressure on 
neighboring nations including Tunisia, Jordan, Turkey, and Saudi 
Arabia--all important partners of the United States. The breakdown of 
state authority has also fueled an unprecedented migrant crisis in 
Europe, threatening the very integrity of the European Union.
    As Henry Kissinger observes in his most recent book, World Order, 
``When states are not governed in their entirety, the international or 
regional order itself begins to disintegrate . . . The collapse of a 
state may turn its territory into a base for terrorism, arms supply, or 
sectarian agitation against neighbors. . . . A significant portion of 
the world's territory and population is on the verge of effectively 
falling out of the international state system altogether.'' \3\
---------------------------------------------------------------------------
    \3\ Henry Kissinger, World Order, Penguin Press: New York, 2014, p. 
143.
---------------------------------------------------------------------------
    The primary cause of this breakdown is the profound failure of Arab 
regimes, over the course of several decades, to provide their people 
with effective and accountable governance. But it also has roots in the 
external shock of the Iraq War and in the technological changes that 
led to the communications revolution, which has connected the region to 
the outside world. This newfound connectivity is what my predecessor 
Zbigniew Brzezinski has called the ``Global Political Awakening''--
where ``for the first time in history almost all of humanity is 
politically activated, politically conscious and politically 
interactive.'' \4\
---------------------------------------------------------------------------
    \4\ Zbigniew Brzezinski, ``The global political awakening,'' New 
York Times, December 16, 2008.
---------------------------------------------------------------------------
    Against this backdrop, it might be tempting to walk away from the 
Middle East and claim that its problems are not America's to solve. To 
be sure, as President Obama has noted, ``we [cannot] take the place of 
[our] Arab partners in securing their region.'' \5\ But what happens in 
the Middle East has profound external implications, particularly with 
respect to migration, terrorism, the proliferation of weapons of mass 
destruction, and the stable and affordable supply of energy. Turning a 
blind eye and walking away from our leadership role is simply not an 
option for the United States.
---------------------------------------------------------------------------
    \5\ President Barack Obama, Statement on ISIL, September 10, 2014,
---------------------------------------------------------------------------
    The second broad trend we face is the reemergence of great power 
competition.
    For roughly 25 years after the fall of the Berlin Wall, the world 
enjoyed an era marked by generally constructive, productive, and non-
hostile relations among and between the important world powers. During 
this time, the United States made a serious effort to integrate our 
former adversaries into a rulesbased international order. That period 
ended in 2014, when Russia, among other things, seized Crimea and 
invaded eastern Ukraine.
    The reemergence of great power competition is rooted in Mr. Putin's 
return to the Russian presidency in 2012. I recall meeting with 
President Putin on the eve of his inauguration; even then, it was clear 
that he intended to take Russia in a different direction, both 
domestically and in terms of foreign policy. Putin's return has brought 
about a level of repression in Russia not seen since the Soviet era, 
and his decision to wage hybrid warfare in Ukraine has profoundly 
destabilized Russia's immediate neighborhood. Russian foreign policy is 
now defined in large part by opposition to the West.
    Mr. Putin's actions stem from a combination of domestic political 
calculations, a failing economy and poor demographic outlook, a sense 
of Russian grievance, a desire to carve out a sphere of influence, and 
a zerosum view of geopolitics. Mr. Putin sees gains by others as a 
direct threat to Russian power: as a result, we have seen a sharp 
decrease in Russian cooperation on addressing global challenges.
    A third current source of global volatility is the global reaction 
to profound economic and political transitions taking place in China.
    For a number of years, China's unprecedented rise served as an 
engine of global economic growth.
    Unsurprisingly, then, the recent slowdown in the Chinese economy 
has had a number of disruptive impacts. Particularly affected are 
China's supply chains and biggest trading partners, especially 
commodity producers like Brazil and South Africa. China's immature 
financial market regulation has also exported some volatility. Another 
worrying economic trend is the increased involvement of Chinese 
security services in the commercial sphere. American technology 
companies doing business in China, in particular, face significant 
challenges.
    On the diplomatic and security fronts, the United States and China 
have continued to engage in significant and practical cooperation 
addressing a range of issues including climate change, global health 
issues such as Ebola, the Iran nuclear accord, increased and higher 
quality military to military relationships, and the North Korean 
nuclear program. That said, China's provocative behavior in the South 
China Sea--including the militarization of claimed and created land 
formations--is risky, destabilizing, and potentially dangerous.
    This needs to continue to be a consistent focus of our engagement 
with China and our partners and allies in the region. The United States 
should continue to take actions that underscore our commitments to the 
principles of freedom of navigation and overflight, respect for 
international law, the peaceful resolution of disputes, and the 
security of our allies.
    Despite these challenges, the United States and China have to get 
this relationship right. As Graham Allison has noted, over history, in 
the dynamic between an established and emerging power, the most likely 
outcome is conflict--the classic ``Thucydides Trap.'' \6\ But conflict 
is not inevitable. I do not see international relations as a subset of 
physics. Our countries' leaders can avoid conflict through steady 
engagement and a concerted effort to avoid strategic miscalculations.
---------------------------------------------------------------------------
    \6\ Graham Allison, ``The Thucydides Trap: Are the U.S. and China 
Headed for War?'' The Atlantic, September 24, 2015.
---------------------------------------------------------------------------
    The last trend is the geopolitical impact of sustained low oil 
prices since mid-2014. The impacts have been vast and substantial. Oil-
exporting nations that are heavily dependent on oil revenues but lack 
significant financial reserves have been severely pressured. This group 
includes Venezuela, Nigeria, and Iraq. Even exporting nations with 
significant reserves, such as the Gulf States and Russia, have come 
under serious economic strain. In recent weeks, Saudi Arabia has 
announced a major reorientation of its economy. Meanwhile, oil 
importing nations, including India, East Asian countries, and European 
countries, have benefited significantly from low oil prices.
    The drop in oil prices stems from an unexpected and large increase 
in global oil supply, driven in significant part by the U.S. shale 
revolution. The shale boom is truly an ``only in America'' story. Our 
advantage comes not simply from the good fortune of sitting atop an 
extensive resource base. It has been made possible by our support for 
innovation, our open and predictable investment environment, our deep 
capital markets, robust environmental safeguards, and a distinct system 
of property and mineral rights ownership.\7\
---------------------------------------------------------------------------
    \7\ For a more detailed version of this argument, see ``Remarks by 
Tom Donilon, National Security Advisor to the President At the Launch 
of Columbia University's Center on Global Energy Policy,'' The White 
House, April 24, 2013.
---------------------------------------------------------------------------
    The American people are now experiencing a number of tangible 
benefits from the shale boom. The abundance of affordable natural gas 
has been an important driver in the U.S. economic recovery, and will 
have long-lasting benefits for U.S. competitiveness. Increasing U.S. 
energy supplies acts as a cushion that helps reduce our vulnerability 
to global supply chain disruptions and price shocks. It also affords us 
a stronger hand in pursuing and implementing our international security 
goals.
                     the myth of america in decline
    Some look at this increasingly volatile environment and draw a 
simple conclusion: that the United States, and its ability to shape the 
world, are in decline. I flatly reject this notion. In fact, the 
extreme pessimism that we have heard from some in the presidential 
campaign, and the general lack of appreciation for America's strengths 
is not only inaccurate, but also dangerous. An inaccurate diagnosis of 
our present posture risks causing the United States to make poor policy 
choices.\8\
---------------------------------------------------------------------------
    \8\ I set out these arguments at greater length in the Landon 
Lecture, delivered April 14, 2014 at Kansas State University.
---------------------------------------------------------------------------
    The idea that America is in decline does not stand up to a rigorous 
analysis of our national balance sheet of strategic assets and 
liabilities. The truth is that no nation can match our comprehensive 
set of enduring strengths--a resilient, strong, and diverse economy; 
bountiful resources, both human and material; a unique global network 
of alliances; unmatched military strength; a powerful culture of 
entrepreneurship and innovation; best-in-class universities and 
research institutions; a dynamic demographic future (unique among the 
great powers); a promising energy future; a well-established legal 
system; and a long and powerful record of international leadership.
    The declinist narrative also underestimates our unique geographic 
position: we are buffered by friendly neighbors and two oceans. As a 
result, we do not face major threats in our own neighborhood. No 
potential geopolitical competitor--and certainly neither Russia nor 
China--can claim such an advantageous strategic base. Positive 
developments in the Americas--including the Colombian peace process, 
the opening with Cuba, and Argentina's change in leadership and 
outlook--have only reinforced this advantage.
    These national assets can never be taken for granted. Leadership is 
not something the United States has by happenstance--it is something we 
have to earn, over and over again. With these advantages, America is in 
a strong position to adapt to and thrive in times of volatility. What 
we cannot afford, however, is to allow ourselves to be divided by 
acrimonious rhetoric, which has been too frequently voiced in this 
political season. Such statements hamper our ability to come together 
and take advantage of the many opportunities our great nation enjoys.
                   challenges for the next president
    Let me conclude by outlining four challenges that the next 
president, with an understanding of America's core strengths, must work 
to address in order to bolster our security and national well-being.
Economic Growth
    The principal national security challenge for any nation is to 
maintain its economic growth and vitality. There are not a lot of iron 
laws in history, but one of them is that international political and 
military strength depends on a nation's dominant economic strength. As 
President Obama said in his 2010 address at West Point, ``at no time in 
human history has a nation of diminished economic vitality maintained 
its military and political primacy.'' \9\
---------------------------------------------------------------------------
    \9\ The White House, Remarks by the President at United States 
Military Academy at West Point Commencement, May 22, 2010.
---------------------------------------------------------------------------
    The 2008 recession was a real blow to our international standing. 
But, as demonstrated by our successful recovery, the U.S. economy has 
tremendous resilience--when supported by the right policies
    Continued economic insecurity at home can also fuel calls for 
retrenchment, which would both undercut U.S. global leadership and 
weaken U.S. economic growth. We cannot lead on the global stage if we 
do not simultaneously strengthen the American economy at home.
    None of our economic challenges is insurmountable; indeed each, in 
my judgment, has an effective policy response available. What is 
required is political will. I want to emphasize three things we can do 
to maintain our prosperity.
    First, we can invest in our national infrastructure. For over 200 
years, what Henry Clay originally termed the ``American System'' has 
driven enormous prosperity and, as a result, increased security.\10\ 
Second, we must maintain our edge in research and development. There is 
a long relationship between national security and economic innovation. 
And third, we must maintain our long term demographic advantage through 
a sensible immigration policy that welcomes those seeking the American 
Dream.
---------------------------------------------------------------------------
    \10\ Jim Manzi, ``The New American System,'' National Affairs, 
Issue 19, Spring 2014.
---------------------------------------------------------------------------
Terrorism
    Through the efforts of the last two administrations, we have 
significantly reduced the threat from Al-Qaeda. But the overall 
terrorist threat has evolved and metastasized, and we have entered a 
new and dangerous phase.
    That phase is principally and most urgently defined by ISIS' turn 
toward external action. As we pressure ISIS in Syria and Iraq--and we 
are doing so successfully--the network and its followers have 
intensified their efforts to expand into other regions and to carry out 
attacks in Europe. In the last two years, ISIS has expanded its 
franchises throughout the Arab world, having declared provinces in 
eleven different countries from Somalia to Yemen.\11\ Unlike Al-Qaeda, 
ISIS is a serial, nondiscriminatory franchiser. The scale and speed of 
ISIS' growth in Libya is particularly worrisome, and will likely 
require more direct military action to stop this threat from spreading 
further.
---------------------------------------------------------------------------
    \11\ ``Where ISIS Has Directed and Inspired Attacks Around the 
World,'' New York Times, March 22, 2016. House Homeland Security 
Committee, ``European Terror Threat Snapshot,'' April 2016.
---------------------------------------------------------------------------
    Second, the return of foreign fighters to Europe and the attacks in 
Paris and Brussels have highlighted how unprepared Europe is to address 
this threat. Europe's failures pose a clear and present danger to the 
United States. Out of the 38,000 foreign fighters who have traveled to 
Iraq and Syria, at least 5,000 are EU citizens.\12\
---------------------------------------------------------------------------
    \12\ Population Reference Bureau, ``2015 World Population Data 
Sheet,'' August 2015; and World Bank, ``East Asia Pacific Growth 
Remains Resilient in Face of Challenging Global Environment, Says World 
Bank,'' April 10, 2016.
---------------------------------------------------------------------------
    Just as September 11 forced us to reevaluate our approach to 
homeland security, the Paris and Brussels attacks should serve as a 
wake-up call for Europe. Despite the transnational nature of the 
terrorist threat, European responses remain cloistered behind national 
borders--and countries' capabilities vary substantially.
    We must press the Europeans to do better. At the NATO summit in 
July, our European allies should come prepared with concrete proposals 
for how they will improve their border controls, intelligence sharing, 
and efforts to counter violent extremism. Steps that would make a 
significant difference include securing the Schengen area's external 
border, including by fingerprinting all foreign arrivals, as well as 
committing to share information about any terrorism suspects crossing 
EU borders with all EU members. Europe must also devote the financial 
resources necessary for national intelligence agencies, Europol, and 
Frontex to do their jobs.
Cybersecurity
    The nation's vulnerability to cyber-attacks has, in my view, become 
one of the most pressing challenges confronting our government, our 
economy, and the American public.
    With each passing year, Americans rely more on goods and services 
that are connected to the Internet. These advances represent a 
tremendous boon for our economy. But they also increase our exposure to 
cyber-attacks.
    At the same time, the number and sophistication of our adversaries 
grows each day. Both Russia and China already possess highly advanced 
cyber capabilities, and they view these capabilities as an important 
geostrategic tool. Non-state actors also pose an increasing threat.
    To confront this problem, the President asked me to chair a 
Commission on Enhancing National Cybersecurity. The Commission, 
composed of twelve leaders from academia, government, and the private 
sector, has been charged with developing a set of concrete 
recommendations to improve our nation's cybersecurity, in both the 
private and public sectors. The recommendations will concern eight key 
topic areas, including federal roles and responsibilities, critical 
infrastructure, the Internet of Things, and data and identify theft 
protection.
    Beyond these specific areas of focus, we must continue to engage 
with like-minded countries--as well as those who are less like-minded--
to advance international norms of responsible behavior in cyberspace. 
Promoting our expectations of what is (and is not) acceptable behavior 
in cyberspace enhances stability and builds international support for 
the U.S. vision of a free, open, and secure Internet. It also provides 
a basis for international action when such norms are violated.
The Asia-Pacific
    Finally, the next president should build on President Obama's 
efforts to enhance stability and prosperity in the Asia-Pacific. The 
future of the United States and Asia are deeply and increasingly 
linked. It is the most economically dynamic region in the world, 
comprising 60% of the global population and accounting for nearly two-
fifths of global growth in 2015.\13\ The goal of the U.S. rebalance is 
to build upon and extend America's leadership in the region across 
every dimension of our power. The United States' leadership and 
presence have provided the platform on which Asia's security and 
economic architecture have been built over the past 70 years. The 
rebalance was the right strategy when President Obama announced it and 
it remains the right strategy today.\14\
---------------------------------------------------------------------------
    \13\ Ibid.
    \14\ For a more extensive version of this argument, see Thomas E. 
Donilon, ``Obama Is on the Right Course with His Reorientation Toward 
Asia,'' Washington Post, April 20, 2014 and Thomas E. Donilon, 
``Keynote Address: Obama in China: Preserving the Rebalance,'' 
Brookings Institution, November 4, 2014.
---------------------------------------------------------------------------
    Our alliance system in Asia remains rock-solid, and continues to be 
the basis of our engagement in Asia, but our allies seek even greater 
U.S. engagement in the region--military, economic, and diplomatic 
engagement. The Trans-Pacific Partnership is the economic centerpiece 
of the rebalance. Ratifying this agreement will solidify U.S. 
leadership in Asia and, when combined with the Transatlantic Trade and 
Investment Partnership with Europe, put the United States at the center 
of a great project: setting out the rules of the road that will govern 
the global economy for the next century.
    Finally, as this committee knows well, North Korea presents the 
most serious security challenge we face in East Asia and the most 
serious proliferation challenge we face globally. North Korea has 
undertaken a ``nuclear sprint'' \15\ in recent months, seeking an 
intercontinental ballistic missile that could carry a miniaturized 
nuclear weapon capable of reaching the United States. North Korea's 
current path presents a direct threat to the United States and its 
allies as well as a significant global proliferation risk. Drawing on 
our experience with Iran, the next U.S. president should construct and 
vigorously and consistently enforce a set of regime-threatening 
sanctions. We must also pursue and expand our ballistic missile 
defenses, including the THAAD system, and support President Park's goal 
of a reunified Korean Peninsula. Addressing the North Korean nuclear 
program will likely be the key test of the U.S.-China relationship in 
2017.
---------------------------------------------------------------------------
    \15\ Scott Snyder, ``Why North Korean threat is a more urgent issue 
for next U.S. President,'' CNN, April 26, 2016.
---------------------------------------------------------------------------
    Once again, thank you for the opportunity to address this 
committee. I look forward to any questions you may have.


    The Chairman. Well, it is a privilege for us to have both 
of you here today. We thank you for your opening comments.
    Out of respect for the committee, I am going to reserve my 
time for interjections and begin with Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman, and I concur 
on the opportunity of having both of these individuals with us 
today. And, gentlemen, I thank you for your service, and I 
thank you for your statements.
    I want to drill down on the point that you made, Mr. 
Donilon, but also Secretary Baker, and that is the observation 
of the lack of good governance in the Middle East providing the 
wherewithal for this movement towards failed states. And 
admittedly, there was outside interference. There was outside 
interference in Yemen, there was outside interference in Libya. 
And we know the Syrian problems. We know Iran's activities. All 
of that has contributed to the lack of stability and the 
failure of governments in these countries. And then, this past 
week, we had a hearing on sub-Sahara Africa and the terrorist 
networks that are operating in sub-Sahara Africa. So, it is 
spreading, and the risk of failed states in Africa is pretty 
dramatic.
    I guess my point is: What should the United States be doing 
in an effort to try to deal with the governance structure? We 
have moved from autocratic countries that have not been able to 
transition into democratic countries. For a while, the 
autocratic systems were working, but, long term, they will not 
work. So, is there something in our toolbox? I mean, I look at 
what we have available to us. Our diplomacy budgets and our 
development assistance budgets are certainly much smaller than 
our defense budgets. Do we have enough resources? Are we using 
them properly? Is there a better way of focus on how we can 
have a more consequential impact on the transition of 
countries, particularly in that region, to a more inclusive 
government that can prevent the type of violence that we have 
seen?
    Mr. Baker. You want me to take a shot at that? I will be 
glad to, Senator.
    Senator Cardin. Sure.
    Mr. Baker. First of all, it is, today, less a question of 
what should we be doing, perhaps, than what we should not have 
done and should not repeat. When we take down an autocrat, it 
is great. It is in keeping with our principles and values, and, 
on the whole, generally speaking, can be beneficial to the 
citizens of the country that he or she is imposing upon. But we 
need to be thinking about what comes next. We should not be so 
quick to come in and get rid of leaders that we do not agree 
with 1,000 percent of the time. If you look at what has 
happened in Libya, what we did there pales in comparison to 
what the Europeans did, but we did assist. President Obama--Tom 
will know this a lot better than I--but I do not think 
President Obama really wanted to do that. But he was convinced 
that we needed to contribute, and we did, and we contributed 
air assets. And so, we took Gaddafi down. Everybody was saying, 
``Well, that is wonderful. He was a brutal tyrant.'' It was 
wonderful. Wonderful. Great. But you do not do that without 
thinking a little bit about what comes next.
    We had the same situation in Egypt, when we bailed out on 
Hosni Mubarak, who had been a wonderful ally of this country 
for a long time, and, by the way, very good on the Arab-Israeli 
problem. And so, we ended up with the Muslim Brotherhood, and 
that became a real problem. And now we have got a military 
dictatorship back in Egypt. But at least we have some 
stability.
    We have the same situation, to some extent, in Iraq. It was 
good to get rid of Saddam Hussein, but we should have perhaps 
done a better job of thinking about what we were going to put 
in place after he left.
    These areas that are failed states are failed states 
primarily because we went in there--at least in part--and upset 
the order, because we did not like the people that were running 
the show. And we should not have liked them. But we need to do 
a better job of thinking about what comes next, before.
    So, right now, my view--and I do not know whether Tom 
shares this, or not, with respect to Syria. It may be a little 
bit too late. It is too bad that we did not support what the 
Turks wanted, which was a no-fly zone along the northern border 
of Syria, the border with Turkey. If we had been willing to go 
along with that, I do not know why we could not have negotiated 
--with the Turks, the Saudis, the Emirates, the Kuwaitis--our 
other friends in the region--a deal where we would say, ``Look, 
we will furnish the air and the intelligence and the logistics, 
you put the boots on the ground, and we will take care of this 
Syrian problem, and we will not have the emergence of ISIS.'' 
Now, maybe it is too late to do that, and maybe it is not. 
Maybe we could generate some sort of coalition like that. But 
that is what we should have done.
    Senator Cardin. And I agree with your point, particularly 
the use of our military. Without having a game plan, what comes 
next, that is not what America should be investing.
    Recognizing, though, that, long term, we need more open 
governments, is there something that we are missing in our 
action to give a better chance for a more democratic system to 
exist?
    Mr. Baker. But you cannot expect the emergence of a 
democratic system in a society that is been authoritarian for 
the entire term of its existence unless you have stability. So, 
you should not expect it to happen if, by your actions, you are 
going to eliminate the stability that existed.
    Senator Cardin. I agree with that.
    Mr. Baker. That is all I am saying.
    Senator Cardin. Mr. Donilon.
    Mr. Donilon. I agree. It is important for us to stress 
governance as part of our approach to these problems. 
Essentially, the situation in Iraq, in many ways, underscores 
the point. The situation in Iraq arose because the Maliki 
government was a sectarian authoritarian government, and was 
not inclusive, and it was a profound failure with respect to 
including Sunnis. We had a governance failure, if you will, on 
the deterioration of the Iraqi Security Forces. And part of the 
solution today in Iraq--and I am very worried about Iraq today 
because we have made a lot of progress against ISIS, in terms 
of our military effort, really serious progress, but we have--
still have--a looming governance crisis in Iraq, in my 
judgment. Abadi, his instincts are in the right direction, but 
we have a really serious pressure on the situation. So, 
underscoring the importance of governance, for example, in a 
situation like Iraq--and I know we are doing that, and 
Ambassador McGurk and others are working on this--is a very 
important piece of any of our strategies, going forward.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you both very much.
    Senator Rand Paul.
    Senator Paul. Secretary Baker, I enjoyed your testimony, 
particularly the discussion of the ideas of selective 
engagement and the talk of regime change. You know, the 
President has now admitted, really, that it was a mistake to 
topple Gaddafi in Libya, but he sort of says, ``Well, it was 
not necessarily a mistake to do it, it was just a mistake not 
to be prepared to create a country out of nothing and put, I 
guess, massive amounts of resources and create a nation in 
Libya.'' And so, there are a couple of possibilities. One is, 
well, maybe you should not do it to begin with. And then the 
other is, well, we do it, and then we have massive resources 
and we create nations. And then the question is, How do we 
create democracy in the Middle East if there is no tradition? 
They have had thousands of years of autocratic rule. I mean, 
people do not realize that, in our country, one of the amazing 
things about the American Revolution is, we had representative 
government for 150 years before that. We had an 800-year 
tradition of it.
    Mr. Baker. Yes.
    Senator Paul. And we had continuity of that. And we think 
we can just blow up Gaddafi and all of a sudden, out of that, 
Thomas Jefferson will get elected. And it is a naive notion, 
but it needs to go back to, not that we need to be better 
prepared, maybe sometimes the selective engagement should be, 
this is a time we should not select to militarily engage. But I 
think it is important also--and I would like to hear your 
comments with Assad, also, because it is the same sort of 
situation. And then, the only other thing I would mix into that 
to see what you would comment on it is that, ultimately, the 
solution in Syria is not saying, ``Well, Russia can be no part 
of it.'' Russia has got a base there, and been there for 50 
years. Probably engaging Russia on a solution to Syria may be 
part of the answer.
    Mr. Baker. They absolutely have to be a part of it, and so 
does Iran. I mean, the idea that we could come to some sort of 
an accommodation or agreement with respect to the future of 
Syria without having those two players is ridiculous.
    Tom, you would probably agree with that.
    We can have bipartisan agreement on that. They have got to 
be at the table if you are going to have some sort of an 
agreement or negotiation that would tend to improve the 
situation--and that is, I think, what Secretary Kerry is now 
trying to bring about.
    But you are quite right in your comment about selective 
engagement. That is why I like the paradigm, because you look 
at each one of these discrete, specific foreign policy problems 
through the prism of our national interest and our principles 
and values, and you say to yourself, ``Okay, if we take this 
action, where is it going to lead--what is it going to lead 
to?''--and decide then that that is the way a President ought 
to approach these things. And look at where the vital national 
interests of the country are at stake, you might decide to even 
go as far as use the military. If you do not get to that point, 
you still have the tools of our political, economic, and 
diplomatic engagement.
    Senator Paul. I like the idea of the guiding principle 
being our vital national interest. But, to me, sometimes, we 
too quickly jump to that as the conclusion, because then that 
is a debate, ``What is in our vital national interest?'' And I 
think what becomes important there is that Congress have a role 
in this, because our founding fathers did not want to give all 
the power to the executive ----
    Mr. Baker. No, but they gave most ----
    Senator Paul [continuing]. They dispersed the power.
    Mr. Baker [continuing]. They gave most of it to the 
President. I mean, I am a creature of the executive branch, so 
you have to understand my bias. But the President has certain 
foreign policy powers that were given to him by the founding 
fathers. I am sorry to interrupt.
    Senator Paul. But, I would just say, also, that even 
President Obama admitted, when he ran for office, that no 
President should unilaterally go to war without the authority 
of Congress. President George W. Bush came twice, both in Iraq 
and for the 9/11 use of authorization of force. My point is 
that, in determining what is in our national interest, if we 
have debate, then we can get to what is actually in our 
national interest. But that means that Congress has to retain 
some authority, and that we should ask Congress's permission 
before going to war, particularly in Libya. He should have come 
and asked. My guess is, the debate would have been very messy, 
but maybe we would not have gone into Libya. Gaddafi might 
still be there, might still have problems, but we would not 
have chaos.
    Mr. Baker. I certainly agree with that, Senator Paul. It is 
always best if the legislative and executive branches are on 
the same wavelength when you start talking about sending our 
young men and women into harm's way. So, whenever it is 
possible, the President should come to the Congress and seek 
their approval. You know, in the first Gulf War, we had a 
Democratic House and a Democratic Senate, and it was 
extraordinarily unpopular to do what we were beginning to do--
getting ready to do. And the only way we got approval of 
Congress was to go first to the Security Council of the U.N. 
and get a Use of Force Resolution by them. Still, President 
Bush brought the matter--President Bush 41--to the Congress. 
But I want to tell you something. Had the Congress turned him 
down, I think he still would have done what he did. I do not 
think we will ever resolve that issue of who has the ultimate 
power, the Commander in Chief or the Congress, the ability to 
declare war.
    Senator Paul. Well, one of the exceptions that is granted 
by almost everybody on whatever side of this issue you are on, 
is that, if we are under imminent threat if there are missiles 
being launched against us, obviously the Commander in Chief 
would want to have the power to make an imminent response. And 
the President said this in 2007, when he ran, ``unless there is 
an imminent threat.'' And when I questioned him on Libya, he 
said, yes, there was an imminent threat to Benghazi. And I was 
perplexed by that answer, because I always thought an imminent 
threat was to the United States, not to a foreign city. Because 
if we make the standard that an imminent threat to any city 
around the world would be okay for the President to 
unilaterally begin a war because any city around the world was 
under imminent threat, I think that would be a standard that 
would be absurd. I mean, would you not recognize the standard 
at least to be that the imminent threat would be to the United 
States or to a military base of ours or to some sort of asset 
of ours?
    Mr. Baker. Well, yes. But if you look at Article 51 of the 
U.N. charter, it says that any country that feels they need 
assistance can call on another U.N. member state to assist 
them. And that is exactly what happened when we went into 
Kuwait to kick Iraq out of Kuwait. It was not an imminent 
threat to the United States. There was no imminent threat to 
the United States at all. You know, the surest and best test of 
a great power is, if you have to act unilaterally, you do so. 
Always best to act multilaterally. I know we would agree on 
that. But that is a test for a great power--if it has to act 
unilaterally. We went into Panama with nobody's consent. Okay? 
They were brutalizing our servicemen down there, and we 
invaded, we took it over, we grabbed Noriega and brought him 
back to the United States. So, there are circumstances when 
that is appropriate. On balance, it is always better for the 
executive and legislative to be in sync and for the United 
States to act with allies.
    Senator Paul. Thank you. And I would just hope that it 
would be more likely to be the exception than the rule.
    Mr. Donilon. I would just add ----
    The Chairman. Sure.
    Mr. Donilon [continuing]. Just to a couple of things on 
Senator Paul's question.
    Number one, in the analysis, as Secretary Baker said, there 
are a lot of policy options between an invasion and doing 
nothing. Right? And that has to be part of the analysis as you 
measure up your how interests are implicated, and then match 
them up with the activities that you undertake.
    Number two, I agree, with respect to Syria--and President 
Obama and Secretary Kerry are deeply engaged--that a political 
solution there is the first, best solution. And we are working 
on that, obviously, with the Russians, specifically.
    But, third, it is important--and we talk about governance, 
and we talk about a lot of the other things that we need to do 
as a nation--it is important to understand that we have a 
really serious security problem with ISIS. And we will not be 
settling the problem with ISIS at a peace conference. And the 
United States is going to have to lead an effort to eliminate 
that threat. And it is going to have to be through force, 
unfortunately.
    And last, I agree with Secretary Baker, obviously, that we 
have all manner of obligations around the world, including 
obligations to our allies and partners and coalitions, which 
obligate us to act with force if sometimes necessary.
    Senator Paul. The only quick response I would make to that 
is, with regard to ISIS, we have to ask the question, Are they 
bigger and stronger because of our involvement in pushing Assad 
back and creating a space for allowing them to grow, or would 
they be less likely to be a threat if Assad were still 
stronger?
    The Chairman. I might add my first interjection here.
    I could not agree more, I do not think we should have done 
what we did in Libya. Opposed it. And I thought the President 
used a really cute--we were not involved in hostilities--moment 
to do that. I also thought we were way too quick to overthrow a 
long-term ally in Egypt, or be a part of that. I could not 
agree more.
    Where I thought Senator Paul may go was, when you do 
selectively end up engaging in war, Secretary Baker, what is 
the best way to ensure that you are successful?
    Mr. Baker. Well, I am biased, but I would submit, Mr. 
Chairman, that a textbook example of the way to go to war is 
the way President Bush 41 went to war in the first Gulf War. He 
told the world what he was going to do, he then went out and 
got the rest of the world behind his effort to do it, to the 
extent that, for the first time ever, he was able to get a Use 
of Force Resolution out of a U.N. Security Council against a 
U.N. member state. He then came up here on the Hill, and it was 
very unpopular at the time, but he narrowly got a vote of the 
Senate by 52 to 48, supporting it, and a vote of the House by a 
larger margin. He went out, and he put overwhelming force on 
the ground to make sure that what he was going to do would be 
successful. He went in, he did exactly what he said he was 
going to do, and no more, did not go to Baghdad, the way a lot 
of people were pushing on him to do, and won the war in 
whatever it was, a few weeks, with, at the time, minimal 
casualties. And then, guess what? He got other people to pay 
for the war. Now, that is the way to fight a war. That war cost 
$70 million, and the United States paid $10 billion. And other 
people--the people who we were helping--paid the balance. I 
submit to you that is the way to go to war. Certainly, you need 
to make sure that, when you undertake that effort, that you 
have got the forces necessary to get the job done available--
get it done, do that and no more, and come on home.
    The Chairman. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chair. And I appreciate 
you having this hearing so we can have a 30,000-foot view of 
American foreign policy and a chance to reflect on where we are 
and where we are potentially headed.
    And I appreciate Secretary Baker and Security Advisor 
Donilon for being here. You both have seen American foreign 
policy and its challenges from both sides over the last quarter 
century, pre- and post-September 11th. And we all know the 
geopolitical developments that have led us to where we are, and 
the importance of ensuring that foreign policy debate, as 
exhibited by both of you gentlemen at the table, ends at the 
water's edge.
    And, in that respect, when I was chairman of this 
committee, Senator Corker and I and other members on both sides 
worked across the aisle, most notably when we gave--we came 
back over--brought everybody back, over Labor Day weekend in 
2014, and drafted and passed an Authorization for the Use of 
Military Force that gave President Obama a credible option as 
he went to the G20 Summit to get Russia to engage Assad in 
stopping the use of chemical weapons against his own people. 
And I think that was a high water mark for the committee, in 
terms of its abilities. And we acted in the spirit of 
bipartisanship that is incredibly important.
    But I would like to hear your perceptions. From my view, at 
the core of the foreign policy debate unfolding today is the 
principle in some iteration of intervention. Aggressive 
intervention without clear goals, particularly in the view of 
the aftermath, as Secretary Baker has suggested, has led us to 
wars that have destabilized entire regions and cost us 
immeasurable blood and national treasure. Tepid intervention 
without the credible threat of consequences, whether they are 
diplomatic, economic, or military, can affect our influence and 
our ability to shape the world. And isolationism, which is a 
dangerous new view emerging in these presidential debates, 
only, in my view, will create the type of permissive 
environment in which our enemies will thrive, because history 
has taught us, time and time again, that nature abhors a 
vacuum. What would fill the vacuum of a decreased U.S. role in 
the world is an incredibly dangerous question.
    So, I see Secretary Baker, in his testimony, foreshadowed 
what he called the end of a unipolar era. And, Mr. Donilon, in 
your testimony, you very directly countered the idea that 
America is in decline. But, as I travel throughout the world, I 
get the perception around the world that the United States is 
stepping back from its role as the last superpower. And whether 
that is true or not, it is a dangerous perception that 
emboldens our enemies. If the current political discourse is 
the standard by which we are to judge the differences in the 
views, I worry. I certainly cannot believe that building walls, 
deporting religious and ethnic minorities, returning to 
torture, or worse, or turning our backs on disarming the world 
of nuclear weapons is a course that we see as the best for the 
United States. And, frankly, the idea of burden-shifting 
remains equally perplexing to me in a world where the burden is 
on us to protect our own interests and project our values.
    So, I wonder if both of you--and I look at the Rhodes 
Profile, and I do not know how much truth there is in all of 
that, but it certainly worries me that messaging is sometimes 
more important than substance and that the witnesses that come 
before this committee or that speak to the American people 
create a misperception or a misleading scenario that I 
personally never bought into, but I certainly worry about it.
    So, in the context of all of that, I wonder if you both 
would share your views as to a foreign policy of shifting 
burden to other nations. That does not mean responsible sharing 
of burdens, but the shifting of burdens to other nations. Does 
that not create a potential for the loss of influence in the 
world? What is the role of--in the pragmatic view of 
democracy--human rights, and the rule of law? Sometimes we 
shortchange that because, in the pragmatic short-term process, 
that creates a potential benefit; but, in the long-term 
process, we often let situations fester and they become bigger 
problems. And what about the international order? In the post-
World War and Cold War, we came to a view that there were 
certain international standards by which the world could come 
together on and agree, and that violation of those standards 
would create consequences. Is that dissipating, that concept of 
international orders in which we can expect other countries to 
join with us in enforcing those international orders and having 
consequences when those international values and standards are 
violated?
    I would like to hear your perspectives on those.
    Mr. Baker. You want me to go? Sure. Okay.
    Senator, I do not think it is unreasonable for the United 
States, given our track record, to ask our allies, 
particularly, to live up to their commitments. For instance, to 
spend 2 percent of their GDP on NATO--on defense--so that NATO 
is sufficiently strong and so that NATO remains the most 
successful security alliance in history, which I happen to 
believe it has been. So, I do not think there is anything wrong 
with that at all. And the fact of the matter is, as Tom Donilon 
has said, the biggest challenge facing the country today, the 
biggest foreign policy challenge or any challenge, is our 
economy. You cannot be strong--economically, politically, 
diplomatically, militarily--if you are not strong economically.
    In his first term, President Obama asked me and a couple of 
other people, ``What should be my number one priority?'' I 
think you were there. And I said, ``Mr. President, in my view, 
your number one priority''--I think he thought I was going to 
come back with Iran or something, or North Korea or something, 
having been the Secretary of State--but I have also been a 
Secretary of the Treasury, and I said, ``Mr. President, your 
number one priority ought to be the restoration of our economic 
strength.'' I still believe that. I still believe that we will 
not be able to do what we need to do around the world, we will 
not be able to remain this uniquely preeminent world power, we 
will not be able to continue to lead internationally if our 
economy does not remain strong. And I mean back the way it used 
to be, in terms of growth. We are not there. So, that is one 
thing we have to do.
    Well, to the extent that we bear an undue share of the 
burden of stability and peace in the world, that is not fair 
for American taxpayers, it is not fair for the American people. 
I do not think there is anything at all wrong with saying that 
more of the burden ought to be shared--particularly by our 
allies. And I do not think that is going to take us down the 
wrong road. Of course, our foreign policy should always be 
informed by our principles and values, democracy and the 
promotion of democracy and free markets. But we have to be 
smart about how we do it.
    I really believe that it is certainly not unreasonable for 
us to say to the people that we have been carrying the load 
for, ``Hey, it is time for you to come in here and help carry 
this load.''
    Senator Menendez. Just to clarify, I was not talking about 
NATO, where I totally agree with you. By burden-shifting, I am 
not talking about just the monetary elements, but taking 
regions, like the Middle East, let us say, and say, largely --
--
    Mr. Baker. Taking leadership of the ----
    Senator Menendez. Right.
    Mr. Baker [continuing]. That has not worked out very well, 
in my experience. I remember when I was Secretary of State, and 
we had been dealing with the end of the Cold War, the Madrid 
Peace Conference, the war in Iraq, the war in Panama, the 
unification of Germany, and all of these issues, and things 
began to fall apart in Yugoslavia. Our European allies came to 
us and said, ``We want the leadership, here,'' and we said, 
``Please, have at it. We have had more than enough on our 
plate.'' And we turned it over to them, and they split like a 
covey of quail. I mean, they all went their own way. And so, 
sometimes that does not work. Sometimes you need leadership 
from the uniquely preeminent power in the world. People 
appreciate it when America leads. They carp at us, there is 
some resentment, there is some jealousy, but they want to see 
us lead, and they appreciate it when we do lead.
    Mr. Donilon. It is interesting, the burden of leadership in 
really pursuing our interests in the world does require us to 
continue to have a presence around the world. But that presence 
provides deterrence, which is short of conflict, obviously, 
which is where we want to be. That presence provides 
reassurance to allies and friends around the world. For 
example, that presence in Northeast Asia--with respect to our 
nuclear umbrella--is absolutely critical in terms of preserving 
the norms on nonproliferation on the nuclear side. So, we do 
have a kind of irreducible demand for our presence and 
investment around the world. And the demand for U.S. leadership 
is increasing, not decreasing, around the world. It is 
important for us to meet that demand.
    And we have a lot of tools in the toolbox that we can talk 
about during the course of this hearing. And one of those is 
obviously deterrence and presence and various guarantees that 
we can give, but also, coalitions that do things like placing 
sanctions. Iran is a good example of that. You are more 
familiar with this, Senator, than anybody. With your help and 
the help of the Congress, we had a very successful sanctions 
effort with respect to pressuring Iran to come to the table, 
and that led to an agreement with respect to their nuclear 
capability.
    But that coalition building, and it took hard work over 
time, was an important part of it, and it would not have 
happened without U.S. leadership. Without U.S. leadership, we 
will not pursue these nonproliferation agendas, we will not 
provide the balance that we need in Asia, we will not provide 
the necessary reassurance. There will not be global trade 
agreements without U.S. leadership. It is the burden that we 
bear as the most important country in the world. And as both 
Secretary Baker and I have said, a fair assessment of our 
balance sheet of strategic assets and liabilities would lead 
you to believe that, with the right policies, choices, and 
leadership, we will continue to be the most important and most 
powerful and influential nation in the world for a long time to 
come.
    The Chairman. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you both.
    Just to continue to build on this line of speculation, 
people around the country are looking at our own economic 
struggles here at home, they see our commitments abroad, both 
in treasure and in lives, and in blood, people coming back 
wounded and so forth, and there is always this fundamental 
question of why does everyone else not do more? Why are we 
committed to these things? Why are we, 70, 60 years after the 
end of the second World War, still engaged in Asia and 
providing defense assistance to Japan and South Korea? Why do 
we need NATO anymore? These are rich countries, they should be 
able to pay for their own defense.
    And so, I would ask both of you to describe a world in 
which NATO lost its way, or perhaps even disintegrated, and a 
world where Japan and South Korea lost U.S. commitment. What 
would the strategic environment look like in Asia, for example, 
if the U.S. nuclear umbrella no longer covered Japan and South 
Korea? And what would the world look like if NATO substantially 
was diminished or even disintegrated?
    Mr. Baker. Well, it would be far less stable. As Tom and I 
have both said, we have got a lot of problems today, but you 
would have a helluva lot more if that were the case. And these 
commitments that we have around the world promote U.S. 
security. You know, ever since the end of World War II, our 
security alliances with Japan and South Korea have been the 
foundation and the basis for peace and stability in the 
Pacific. NATO has been the foundation and the base for peace 
and stability in Europe and on the Eurasian continent.
    Senator Rubio. But, some would say, some have suggested, 
``Why do you not just let Japan and South Korea get their own 
nuclear weapons and let them defend themselves?''
    Mr. Baker. I think that the more countries that acquire 
nuclear weapons, the more instability there is going to be in 
the world, in my opinion. If you look at the way North Korea is 
using its nuclear capabilities, that is all it has got. That is 
its threat. That is its big card. But it plays it. And ever 
since the end of World War II, America has led the fight 
against the proliferation of nuclear weapons, weapons that can 
kill millions and millions of people. We ought not to abandon 
that fight. That would not promote stability. That would 
promote instability.
    Mr. Donilon. Senator Rubio, this is a really important 
thought experiment, right? And an analytical exercise is to 
think about what would happen if, in fact, these norms and 
institutions and United States-led operations were not there.
    In Asia, as Secretary Baker said, for 70 years we have 
invested in a platform in Asia on which Asia's prosperity and 
economic development has been built. And if you do the thought 
experiment, do you really see, over the last three-quarters of 
a century, the spread of democracy in Asia? Would you have seen 
that prosperity in Asia? You would have seen a proliferation of 
nuclear weapons in Asia, absent the United States presence and 
absent the United States reassurance to those countries, and 
building a platform around which the social and economic 
development has been--you know, has been built.
    And NATO is another example of this, of course. It has been 
tremendously successful. You know, we sit here today, and we 
take for granted--it is, in some ways, a memory problem--we 
take for granted that Europe is stable, peaceful, and 
prosperous. That is not the history of Europe, absent the kinds 
of institutions that were put in place. And it should never be 
taken for granted that these are permanent situations, absent 
really tending to them on a constant basis.
    So, I think the thought experiment you asked us to do is a 
really important one, and the outcomes are clear.
    Senator Rubio. Yes, it is not just a thought experiment, it 
has actually been proposed. But, for the purposes of our 
discussion in this committee, it is a thought experiment. Just 
to be clear, I do not support doing that. I just want to 
revisit this Libya-Syria situation for a moment, because it is 
sometimes misconstrued. We did not start the uprising in Libya, 
and we did not start the uprising in Syria. The Syrian people 
stood up against Assad, actually peacefully at the beginning, 
and then were met with violence. And the people of Libya stood 
up to Muammar Gaddafi. And there is a very compelling argument 
to be made that, in both cases, neither one of those leaders 
were going to be able to hold on to power in the long term 
unless they did what Gaddafi was going to do and Assad is doing 
now, and that is massacre people in order to hold on to power. 
And so, there was a valid argument to be made at the time that, 
if you had foresight, you would say to yourself, ``These 
dictators are in trouble. The only way they can hold on to 
power is to massacre people. If they do so, it is going to lead 
to chaos and instability. And in the Middle East, chaos and 
instability, in any part of the--of that region, is the basic 
ingredient necessary for Islamic radical jihadists to come in 
and take advantage of that environment.''
    It is important, when we talk about that situation, to 
remind ourselves that these were not efforts by the U.S. 
Government to go in and overthrow dictators. It is the people 
of those countries that stood up against them. We had to make a 
decision about what would be in our best interest. If you were 
able to think three steps forward, in the case of Gaddafi, what 
if he had gone into Benghazi, massacred all those people, what 
you would see emerge there would have been all these militias 
taking up arms, staying in perpetuity, leading to the kind of 
instability we see today. But it is an accurate assessment to 
say that we did not start that. We were left to consider the 
question: What is the best thing going forward for us to do 
within our national interest? And I made the argument at the 
time, and continue to stand by those arguments, that it was in 
our national interest to ensure that whatever resistance there 
was to those dictators would be made up of people more stable, 
people with whom we could work because, in the absence of those 
sorts of elements, that vacuum would be filled by the radical 
elements that have now filled those vacuums, in the absence of 
our leadership.
    Mr. Baker. But that is not what happened, Senator.
    Senator Rubio. Oh, I agree it is not what happened.
    Mr. Baker. I mean, yes, the people were beginning to stand 
up, but we enabled it to happen by using our military force to 
go in there and remove those dictators. Same thing in Iraq. I 
mean, I do not suggest that this is not a bipartisan problem. 
It is a bipartisan problem. But look where we are in all three 
of those places--Syria, Iraq, Libya. Would we have been there 
had we not done those things? I am not sure we would have. In 
fact, I do not think we would have. Now ----
    Senator Rubio. You believe Assad would have crushed the 
rebellion against him and recaptured control of the entire 
country?
    Mr. Baker [continuing]. I am not sure whether that would 
have happened, or not. But I guarantee you that I do not think 
that we would have the situation that we have today.
    You know, for years, we used Saddam Hussein against Iran. 
When I was Secretary of State, we worked with Saddam Hussein. 
We finally ended up fighting a war with him, but we worked with 
him, tried to bring him into the community of nations. But he 
was our buffer against the interests of Iran.
    You know what the most important country today in Iraq is? 
Not the United States, with our humongous, big embassy there. 
It is Iran. Most important outside power in Iraq today is Iran. 
And I do not think the Libyan--I did not--it is not my view 
that the Libyan people were going to be able to throw Gaddafi 
over unless we and the Europeans--of course, they were the real 
movers--went in there and did it.
    Senator Rubio. Sure. But you would have had a protracted 
conflict within that country that would have served as a magnet 
for radical jihadists to come in and do what they are doing now 
----
    Mr. Baker. Well, more of a magnet than what we have got 
now, with a failed state?
    Senator Rubio. Sure. But the same. And that is the point. 
We should have empowered elements there potentially to provide 
some level of stability after the fact. That obviously did not 
happen.
    Mr. Baker. Yes, we should have.
    Senator Rubio. We started the conflict, we did not follow 
through, it left a vacuum, the vacuum has now been filled by 
ISIS in the northern part of the country. The same is true now 
in Syria.
    Mr. Baker. We should have done that in all three of the 
places.
    Senator Rubio. We agree.
    Thank you.
    The Chairman. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    This has been fascinating. Thank you both for your time.
    I want to continue to probe this question of what American 
leadership means today. And, of course, our ability to lead is 
only as good as the effectiveness of the tools that are in our 
kit.
    Mr. Baker. Yes.
    Senator Murphy. And so, I just want to ask some questions 
about whether we are, today, properly resourced to deal with 
the way in which our adversaries are trying to project their 
power. And I think this is a version of the question that 
Senator Cardin was asking. And let me, maybe, pose it through 
the prism of Ukraine.
    So, Russia has, clearly, militarily invaded Ukraine, but 
its end goal, I think, is not to march on Kiev or to militarily 
own that country. It is to use its military power in order to 
politically and economically ruin that country. And it is doing 
all sorts of other things, whether it be bribery, graft, 
intimidation, energy bullying, to try to get what it wants 
there.
    And yet, all of our conversation here has largely been 
about whether or not we arm the Ukrainians with military 
assets. We have had a panoply of responses, but the most 
significant has been the deployment of two brigades to shore up 
our allies. And it just seems to me as if we simply do not have 
the nonmilitary resources to try to play the game that the 
Russians are playing in a place like that. We do not have the 
ability to offer substantial energy assistance to try to answer 
the question of dependence on Russian oil. We bleed out a 
little bit of money for anticorruption efforts in places like 
Kiev, but we do not have the ability to do that on a large 
scale.
    So, in a world in which our military strength is still 
unchallenged, what should we be thinking about, in terms of the 
other tools that project American power that will eventually 
win the day? And is the fight in Ukraine an example of a place 
in which we, maybe, just do not have the influencers that we 
need in order to protect that country?
    Mr. Baker. Well, I did not hear you mention sanctions, 
which are ----
    Senator Murphy. Right.
    Mr. Baker [continuing]. Which are having an effect, and 
they are quite strong sanctions, and I believe they are having 
some significant effect on the Russian economy.
    You know, you are talking to somebody here who was there 
when we negotiated the Budapest Memorandum at the end of the 
Cold War. I was trying to get the Ukrainians to get rid of 
their nukes. And they said, ``No, no, we do not want to get rid 
of our nukes.'' I said, ``What in the world, in this new 
environment, what are you afraid of?'' They said, ``We are 
afraid of the Russians.'' So, we said, ``Well, we will fix 
that. We will get the Russians to give you an ironclad 
guarantee that they will respect your territorial integrity and 
independence.'' And we got it. It was called the Budapest 
Memorandum, and look where it is.
    So, I do not think we have an absence of tools, really. 
Because we should not act there unilaterally, we have to act 
with our European allies. And bringing them along is a lot more 
difficult than acting alone. That is why we are having the 
difficulty we are having. But we should not just sit back and 
do nothing. Look at what Russia has done there. I mean, it is 
outrageous. And now they are doing barrel rolls around our 
aircraft and buzzing our ships in the Baltic Sea. We have got 
the tools. It is a question of whether we have the political 
will, with our European allies, to use them.
    Mr. Donilon. I agree. You know, Senator, we do have the 
tools. And so, with respect to Europe, there is a NATO summit 
coming up in July, and there needs to be a broad look at the 
functions and capabilities of NATO, taking into account what 
Russia has been up to. Russia has essentially been up to a kind 
of a multidimensional covert hybrid war effort in the Ukraine. 
And we need to ensure that NATO has the kinds of capabilities 
and assets that it needs to push back on those kinds of 
threats. Right? That is not tanks coming across the border. 
That is a different kind of threat on which we really can make 
some progress. We have cyber assets, and we can work with NATO 
and the Europeans, as well.
    I do think we have ways to promote the diversity of energy 
supply in Europe. And, indeed, our great progress here with 
respect to natural gas production in the United States is 
already promoting a diversity of supply, because natural gas 
that would otherwise come to the United States can go to Europe 
as a way to diversify supply. And I think there are efforts 
underway in Europe to do that.
    We need to continue to work with the Europeans on our 
counterterrorism efforts. It is really important in Europe for 
us to complete these TTIP (Transatlantic Trade and Investment 
Partnership) negotiations, right, which are important 
economically for Europe and for us.
    So, it is a variety of tools that we have. We have to have 
a multidimensional look at our European policy. But I agree 
with Secretary Baker. There are a number of things that we can 
and should do to focus on the challenge from Russia--and ISIS--
in Europe.
    Senator Murphy. With my remaining time, Secretary Baker, 
could I just bring you back to the Middle East for a moment. 
There has been a lot of discussion here about the U.S. 
participation in the Saudi-led coalition bombing campaign in 
Yemen, and worries that this proxy war is going to expand to 
territory beyond Yemen. What is your advice--and I would be 
happy to get Mr. Donilon's advice, as well--on the U.S. 
positioning, vis-a-vis this growing proxy war? Should we be 
backing the Saudis' play in every instance? Should we be 
evaluating each conflict on its own merits?
    Mr. Baker. We should be applying the principles of 
selective engagement, as I said in my opening statement. Some 
instances are going to require that we be there, and that we be 
there militarily. Just as a generic matter, we need to get 
closer, if we can now, to the Saudis. They really feel that we 
do not have their back anymore. And they have been a pretty 
good ally for a long, long time. They have done some things 
with these madrassas and things that we needed to shut down, 
yes. And we worked out of both Democrat and Republican 
administrations to get them to come off of that behavior. And 
they have come off of it substantially. But they have been a 
good ally. They are an important ally in the region. They 
really feel disaffected with us now. And so, I do not see any 
reason why we should not be there for them, have their back, if 
you will, not necessarily to the full extent of military 
action, but I do not happen to see a problem with our trying to 
help them deal with the threat from Iran and the Houthis in 
Yemen.
    Senator Murphy. Tom.
    Mr. Donilon. Senator, we need to give them our best advice, 
obviously, with respect to the operations they have underway. 
And we are pretty deeply involved in doing that. And we give 
them support for a number of these operations. But we need to 
give them our best advice, as I said, with respect to specific 
operations.
    But I agree with Secretary Baker. President Obama, just 
last month, went to Riyadh to host a GCC Summit. It is 
important for the United States to provide reassurance with 
respect to our partners, like Saudi Arabia, in the region.
    You know, it is always important to have a keen 
understanding of the threats that they see and what they feel, 
and for us to really do a clear-eyed assessment of what the 
alternatives are as we proceed with our policy, going forward.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And [to the witnesses] thank you very much for the 
opportunity to hear your testimony today.
    I wanted to follow up a little bit on this question of 
energy issues and the burden that the American taxpayers are 
carrying in NATO and other instances around the globe.
    Secretary Baker, you mentioned it is not fair to carry an 
undue burden of world security, to paraphrase what you have 
said. I do not want to put words in your mouth. I think that is 
the essence of what you had talked about. And we talked about 
European security when it comes to energy and Russia and 
Russia's, of course, reliance on energy to fill its federal 
coffers. We have this 2-percent requirement with NATO, in terms 
of what we expect or would like them to contribute to the NATO 
alliance. But when it comes to energy and some of the other 
strategic vulnerabilities that we see in a number of our NATO 
allies, I look at energy as one of those, sort of, key 
strategic vulnerabilities because of their dependence on 
Russia.
    Should we have policies, as the U.S. and NATO, that would 
help drive some of our NATO alliance members to develop further 
energy securitie? Because a number of policies in Europe would 
prohibit them from developing all of their energy resources. 
They are not allowed by their governments or NGO actors. And 
can the United States do more to help provide them with that, 
to help shore up this this strategic vulnerability?
    Mr. Baker. You mean by way of taking on their own 
restrictions? I do not know that we can do too much there. If 
those restrictions are imposed by their state, I do not know if 
the United States can do much, other than through persuasion 
and through diplomatic channels, to try and get them to 
concentrate on removing those bureaucratic impediments. That is 
all I know that we can do.
    Many of us have been asked to sign a letter supporting the 
idea that the U.K. should not leave the European Union. And I--
as a former Treasury Secretary and Secretary of State--I was 
asked to sign such a letter. And I declined, because if I were 
a Minister over here or President of the United States over 
here, and the foreign Ministers of another country wrote me a 
letter saying, ``Here is what you ought to be doing with your 
own affairs,'' I would sort of resent that. So, I just said, 
``I do not think that is the proper role.'' And I do not think 
it is our proper role to get into trying to change the laws of 
those states, internal laws of those states, other than through 
persuasion and diplomatic channels.
    Mr. Donilon. There is a lot Europe can do, though, with 
respect to advancing its energy diversity. They can do a lot 
more with respect to building on infrastructure in order to 
receive natural gas from other places in the world, including 
the United States. They can work on a more rational pipeline 
and distribution system. And we can provide advice on that. And 
we should--I disagree a little bit--I think we should be 
advocating for Europe to take steps to diversify its energy 
supply and to reduce any monopoly influence that Russia might 
have. And there has been some progress with respect to 
diversity of supply, but a lot more can be done.
    Senator Gardner. Yes, thank you.
    Mr. Secretary, in a speech in 2011, you said, ``Allow me to 
be blunt. Some in the United States--not a majority, by any 
means, but certainly a vocal minority--see China's rise as a 
threat somehow to America's international status. They believe 
that conflict between our two countries is inevitable as 
Chinese ambitions clash with American position and power. 
Ladies and gentlemen, these observers are wrong, and they are 
not only wrong, they are dangerously wrong. And the reason is 
very simple. Their analyses grossly underestimate the broad 
areas where Chinese and American interests converge.'' Do you 
believe that statement still holds today?
    Mr. Baker. Yes.
    Senator Gardner. What are our future risks? And we should 
handle and ----
    Mr. Baker. I do, Senator Gardner. I happen to believe that 
one of the biggest challenges facing American policymakers 
today is how we react to the rise of China as a global power. 
It is extremely important that we get it right. It is important 
that China get it right, too, in terms of their relationship 
with us.
    There are some areas, with respect to China, where there 
can be a convergence--where there is a convergence of interests 
and where we can be semi-cooperative, it seems to me. But there 
are plenty of areas where we are going to continue to have 
tensions. We are going to have tensions on human rights. We are 
going to have tensions on Taiwan. We are going to have tensions 
on Tibet. And we are going to have tensions now involving the 
South China Sea. But we need to cooperate with China, where we 
can--on regional security, energy security, perhaps trade. But 
we need to manage the differences that are going to exist. So, 
cooperate where we can, manage the differences where they 
exist.
    But we will certainly need to maintain a robust military 
presence in the Pacific, in the form of the 7th Fleet, to guard 
against any Chinese efforts to achieve hegemony in that part of 
the world. And there are a lot of our allies in that part of 
the world that are counting on us to be there for them. I think 
we can. All I am saying is, it is not foreordained that the 
United States and China are going to become enemies, at least 
not in my opinion, if we play our cards right.
    Senator Gardner. Mr. Donilon, you would like to jump in? I 
want to add a little bit to that. I mean, we obviously have 
been active, the 7th Fleet you mentioned, our Freedom of 
Navigation operations. What more should we be doing in the 
South China Sea, in addition to this question, Mr. Donilon? And 
should we also be pursuing other asymmetric actions, diplomatic 
channels, in addition to our Right of Passage exercises?
    Mr. Baker. Well, we should be doing all the diplomacy we 
can, absolutely, but freedom of navigation is very important. 
And we need to impress upon the Chinese the danger that these 
activities present, particularly where you have a conflict 
between China and Japan over the so-called Diaoyudao Islands or 
Senkaku Islands, because we have got a security treaty with 
Japan. And if they start shooting at each other over those 
islands--uninhabited blocks out there--it is not going to be a 
good thing for us.
    But let me turn ----
    Mr. Donilon. Senator, there is really no more serious 
diplomatic burden that we are going to have, going forward, 
than to manage the U.S./China relationship.
    Senator Gardner. Right.
    Mr. Donilon. Because of history and the dynamics between a 
rising power and an existing power, it is a real challenge, and 
one that needs a lot of attention. And again, there is a great 
burden on the policymakers on both sides.
    Second, as Secretary Baker said, this will require us to 
continue our presence in the region. following through on the 
rebalance effort is quite important, ensuring that we have 
appropriate resources and the right balance of forces there.
    Third, we need to make very clear to the Chinese, and I 
have spent as much time with the Chinese leadership as anybody 
in our government over the last few years, to make absolutely 
clear that we are going to maintain our alliances. Some on the 
Chinese side see them as anachronistic Cold War relics, but, in 
fact, they are the basis on which we engage in the region, and 
will continue to engage in the region. And one of the great 
beneficiaries of our engagement over the last three-quarters of 
a century has been China.
    Two or three problematic areas, obviously. The South China 
Sea, it is important for us to underscore the key principles 
that we seek to maintain there--freedom of navigation, peaceful 
resolution of disputes, the force of international law. We do 
that through our presence and the Freedom of Navigation 
exercises. It is important for us to continue to press in the 
region for a code of conduct to be established for activities 
with respect to these and other disputed areas.
    I think that we can press with China, in dialogue, an 
understanding that there is a real danger here of mistaken 
miscalculation, and one that we should do everything we can to 
avoid. In my conversations with the counterparts in the Chinese 
government with respect to this area, I have said, many times, 
we have got a tremendous amount at stake here. And some night, 
in the middle of the night--or the middle of your day--we are 
going to get a call and we are going to have a problem around 
some rock formation or island, the name of which we do not know 
and we cannot find on a map, and it is going to be a real blow 
to our relationship. So, it is something that the Chinese need 
to think very hard about, in terms of their more aggressive 
actions, and we need to be very steadfast in addressing it.
    And the last thing I will say, as I said in my opening 
statement, is that a premier test of the U.S./China 
relationship going into next year is the North Korea situation. 
This is the most important security challenge we have in Asia. 
As I said in my testimony, the most important proliferation 
challenge we have globally. The North Koreans are proceeding 
headlong with respect to a missile program and nuclear program. 
At the end of the day, we are going to have to take steps to 
protect ourselves, obviously, against this, because it is not 
acceptable to any U.S. President to have the North Koreans with 
an ICBM capability with a miniaturized nuclear weapon that can 
reach the United States. A number of steps we are going to 
take, obviously, are going to make China strategically 
uncomfortable. And this dialogue with China on this is quite 
urgent and a real test of the relationship going forward.
    Senator Gardner. Thank you, Mr. Donilon. Just ----
    Mr. Baker. Let me echo what Tom just said. I could not 
agree more about the North Korean comments. And if we are going 
to have any chance at all of getting this done, short of some 
sort of a military response, which would be unappealing, at 
best, it is going to have to be with China. China is the only 
country in the world that is going to have any real influence 
on the North Koreans.
    Senator Gardner [continuing]. Yes, Secretary Baker, Mr. 
Donilon, thank you for that. This committee has been leading in 
the area of North Korea in the sanctions bill that we passed. I 
would love to continue this conversation with both of you about 
what more could be done, and particularly in light of the fact 
that it looks like, from at least the Trade Ministry in China, 
that trade with North Korea, between China and North Korea, has 
actually increased and not decreased. And that is some powerful 
leverage that they seem to be heading the wrong direction on.
    The Chairman. Thanks for your leadership in that effort.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    This committee has been discussing this for a long time. We 
have talked about sanctions. I would like to follow up a little 
bit on the North Korea part of this. You talked about how 
important it is that we address the issue. What steps, 
specifically, do you think Congress should take in this 
conflict we have going on? And then what action the executive 
should take on North Korea, with what is developing there right 
now.
    Mr. Baker. The executive should make it clear to the 
Chinese leadership that this is something that we view very 
gravely, that it is a matter of utmost and serious concern to 
us. If the executive comes to the Congress and asks for 
sanctions of any kind, the Congress ought to respond quickly 
and effectively and affirmatively because surely the first 
response is not going to be a military one. I think we all 
understand that. But we are going to have to do something, 
because, as Mr. Donilon has said, they are racing pell-mell 
toward nuclear capabilities that constitute a serious threat to 
us and to our security treaty allies, Japan and South Korea.
    Senator Udall. Mr. Donilon, please.
    Mr. Donilon. Senator, I guess I would go through a list of 
things.
    One is sanctions, obviously. And the resolution at the 
U.N., U.N. Resolution 2270, is a real step forward. We did this 
in cooperation with the Chinese. There are loopholes in those 
sanctions, though, with respect to coal sales and things like 
that. Those loopholes should be closed.
    My judgment on sanctions, taking my experience from the 
Iran situation, where we basically put together, over the 
course of half a decade, a series of sanctions that were 
regime-threatening, ultimately. And that is what brought Iran 
to the table. That should be the goal of a sanctions regime 
with respect to North Korea, that they see it as regime-
threatening.
    The second is for the Congress to support, and the 
administration to continue to put in place, the appropriate 
missile defense systems in Korea, to protect us and our allies 
in the region. We are moving to do that. We have opened up 
discussions with the South Koreans on putting a THAAD system in 
South Korea, but we need to do more.
    Third, support President Park in her vision. She is taking 
concrete steps, too, including pulling back the South Koreans 
from the joint industrial facility in North Korea. Support 
President Park's vision of a unified, peaceful Korea, and do it 
aggressively.
    And then, fourth, from the executive branch side, to really 
undertake an effort to deepen our conversation with the Chinese 
about the future of the peninsula. It is an uncomfortable 
conversation for them, but when you are presented with the fact 
that the United States is going to have to do a number of 
things to protect itself, they are not going to be aimed at 
Beijing, but Beijing is going to see them as strategically 
uncomfortable. That is going to head us towards a serious 
strategic disagreement with the Chinese. But, again, those 
steps will not be aimed at China; they will be aimed at 
Pyongyang, and China is going to have to come to the table with 
that understanding and work with us a lot harder on imagining a 
future for the peninsula and working with us in a much more 
aggressive way.
    I think those are the key steps: sanctions, missile 
defense, politics, and a deeper conversation with the Chinese 
about the situation. As I said, this is going to be a key test 
for the U.S./China relationship in the coming year.
    Senator Udall. Thank you very much for those answers.
    I would like to shift back. We have had a lot of discussion 
about Syria and Afghanistan and Iraq and what happened there. 
One of the things we have talked about compliment the Chairman 
and Senator Cardin for holding a hearing like this--is, at 
certain points, we should take stock as to where we are and 
what lessons we have learned. And it seems to me, when you look 
at those three countries, and you look at the amount of aid 
that we have spent--and I think people are talking about an 
effort greater than the Marshall Plan--when you look at what 
results we have gotten and where we are today, what do you 
think the lessons are that we should have learned? In 
particular, I would like to focus in on Afghanistan, since we 
have had so much difficulty there stabilizing the country.
    Mr. Baker. I am not sure that I am the best person to 
answer that for you, Senator. Tom left government far later 
than I did, and he dealt with Afghanistan. I never had to do 
that.
    But I will simply say that it is now the longest war that 
we have ever fought. We are still there. But I would suggest 
that the one thing we ought not to do is to make what I think 
was a mistake in Iraq by withdrawing our forces too quickly. I 
certainly support President Obama's decision to leave forces in 
Afghanistan. And I think it is unfortunate that we are going to 
be there a good bit longer. We ought to do everything we can to 
promote an agreement between the government and the Taliban. 
Anything that we can do to get that done and to enhance that is 
what we ought to do. But those are my thoughts.
    Mr. Donilon. Senator, it is an important question with 
respect to our undertakings in Afghanistan. As Secretary Baker 
said, it has been our longest war. But we have, in fact, really 
diminished the threat from al Qaeda through our efforts in the 
region, and that is an important outcome.
    It underscores just how difficult these challenges are. I 
do think it would be useful for our military, in preparation 
for the next President coming into office, to ask hard 
questions about what are the lessons about how we have fought 
war in the last decade and a half. We could really drill down 
on it and prepare a set of lessons learned as to how we fought 
war for the next President. We have had some successes, but we 
made, obviously, a number of errors, and we have had some 
strategic difficulties.
    I agree with Secretary Baker, where we are today, though, 
in Afghanistan, given the pressure from a resurgent Taliban, I 
think we are going to need probably the current level or 
something like the current level of U.S. forces we have there 
for some time to come.
    But we did, it is important to underscore, we did make 
significant progress against al Qaeda. We did provide the 
Afghan people with an opportunity to build a society there. But 
you have to have some humility about this, as well. I mean, the 
ability at this distance to reform societies that are so 
different than ours is limited, ultimately. So, we need to 
identify the threats to us, deal with those, do what we can on 
the other side.
    But I do think this lessons-learned exercise about how we 
fight war is a useful thing for the next President to be able 
to look to.
    Senator Udall. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I am going to have my second interjection, to give Senator 
Flake just a moment, since he just stepped in.
    In Afghanistan, I will say that al Qaeda is coming back. I 
say that, not to challenge. We just recently allowed our troops 
to go against them, which was pretty phenomenal. There is no 
question that Pakistan is undermining us every day with their 
support of the Haqqani Network, which is the greatest threat to 
the Afghan government and to our men and women in uniform. The 
duplicity of Pakistan in all of this has been hard for most of 
us to stomach.
    But let me just ask this question. Selective engagement is 
the way Secretary Baker has framed it. Mr. Donilon, what would 
be your take on that view of U.S. foreign policy?
    Mr. Donilon. Well, it is sensible. The United States should 
always ask, before it engages militarily, what the interests 
are implicated. The degree of interest implicated, as I said 
earlier, will dictate what we do and what steps we take.
    Third, the response to every problem in the world is not 
U.S. military action.
    The Chairman. I thought you would agree, and ----
    Mr. Donilon. Yes.
    The Chairman [continuing]. And so, let me take it to the 
next step. The world is watching right now. I mean, we are the 
greatest power on Earth, and so the world is watching as this 
presidential race evolves. Certainly, Europe is watching. I had 
a leader from China in yesterday, and I can tell their demeanor 
has changed greatly since I met with them last in February. 
What is the best way for us to communicate strategic 
engagement? As you consider the best future course for our 
Nation, if you were advising folks who now are going to be the 
focus, if you will, of U.S. foreign policy over the next six 
months as to how they might communicate that to the world, how 
would that be?
    Mr. Baker. How they would communicate the principle of ----
    The Chairman. That is correct.
    Mr. Baker [continuing]. Selective engagement?
    The Chairman. That is correct.
    Mr. Baker. Well, when we have a new President, he or she 
ought to say, ``This is the foreign policy paradigm that I am 
prepared to follow, and I am going to take a look at each and 
every one of these issues as they come before me. I am going to 
test them against the national interest. I am going to test 
them against our principles and values. I am going to test them 
against what I and my advisors think is doable. Then I am going 
to decide whether or not it is how I am going to address that 
problem. Am I going to address it just economically and 
politically and diplomatically, or am I going to address it 
militarily, as well?'' That is the way it would work. So, it is 
going to depend upon each specific instance or issue that comes 
before the Commander in Chief. But I do not know whether that 
answers your question.
    The Chairman. I am going to follow up in just a second.
    Mr. Donilon, what would you ----
    Mr. Donilon. You know, Chairman, it is important for people 
who are going to be President to communicate their vision of 
the foreign policy they intend to follow. It is important to do 
that in some detail during the course of the campaign. I hope 
we can have that during the course of this campaign. It is 
important for the next President to communicate that with 
confidence. Because, as we have both discussed here today, the 
United States is and has the resources to be the leading nation 
in the world, and should be the leading nation in the world, is 
required to be the leading nation in the world. It is important 
to communicate that we will continue to have a focus on our 
economic growth, which is obviously important for us and also 
important for the world. There needs to be a focus on our 
allies and the value to the United States of this unique and 
ongoing global alliance. Those are the main themes: our economy 
and the strength of our relationship with our allies.
    The Chairman. And how would that be different, from your 
perspective, how would that be different than you think the 
world is viewing the United States today?
    Mr. Donilon. Well, it will depend on who the next President 
is.
    The Chairman. Well, no, no, no. The selective engagement.
    Mr. Donilon. Yes.
    The Chairman. So, what the two of you were talking about, 
if you were going to contrast that with how you look at U.S. 
foreign policy today, what would be that be?
    Mr. Baker. Well, are you talking about right this very 
minute ----
    The Chairman. This very minute.
    Mr. Baker [continuing]. Or U.S. foreign policy over the 
past 20 years? I mean ----
    The Chairman. Do both.
    Mr. Baker [continuing]. I think the beauty of this paradigm 
that I have suggested is that you look at each and every 
foreign policy problem on its own bottom, and you then decide 
what range of tools you are going to use to try and address it. 
You are not wedded to either a foreign policy based only on 
idealism--we are only going to go for principles and values--
or, frankly, only on the national interest.
    What I would say, once again, is, if you are talking about 
sending America's young men and women into harm's way, you had 
better have a really significant national interest at stake 
because, as the body bags begin coming home, you will lose 
support for the policy if you do not have a significant 
national interest at stake. Witness Vietnam. Witness Iraq in 
2003.
    I do not know what the view of U.S. foreign policy today is 
by people on the outside because, frankly, we have embraced a 
number of different paradigms. That is the best way I ----
    The Chairman. Yes.
    Mr. Baker [continuing]. Know how to answer your question.
    Mr. Donilon. Mr. Chairman, I think I know where you are 
coming from. I guess the question would be, if you assume that 
there are perceptions in some quarters about the retrenchment 
in pulling back of U.S. leadership, my judgment is that that is 
not borne out by the facts. I think I know where some of this 
comes from. But the fact is, of course, that the United States 
continues to lead aggressively around the world, whether it be 
in Asia, where we are implementing a rebalance to Asia and 
engaged with China in constructive ways and in terms of 
managing our differences and confronting our differences. If 
you look at who is leading, in terms of putting in place trade 
agreements, a TPP and TTIP, with the United States virtually 
standing in the center, putting together the most important 
trade agreements around the world. If you look in the Middle 
East, the United States led the effort to address the 
proliferation challenge from Iran. The United States is leading 
the counterterrorism effort in the world. And it has been 
important, actually, to accelerate our efforts with respect to 
the challenges in Syria and in Iraq.
    It is important to underscore the facts. And we have also 
taken some very important steps with respect to deepening our 
relationship in our own hemisphere. That, by the way, gets way 
too little attention in terms of a strategic strength of the 
United States. No great power, no great nation or important 
nation in the world, has the kind of strategic base that we do, 
in terms of the Americas and the potential.
    So, I think it is important to underscore the fact of 
American leadership with specifics. I do think it is important 
for us to continue to accelerate our efforts in Iraq and Syria 
to address those problems, which are going to exist beyond the 
end of President Obama's presidency. But that is the kind of 
conversation that we should be having with the world. 
Confident, based on the facts, and rooted in continued U.S. 
leadership.
    Mr. Baker. Can I say, without this being interpreted as a 
political statement, which it is not, because I agree with 99 
percent of what Tom has said here today, we need to make the 
world understand we are going to lead from in front, and not 
from behind. Because I think that is an oxymoron.
    The Chairman. Thank you.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    And I apologize if I am plowing old ground here with the 
questions earlier. I could not be here earlier.
    With regard to the JCPOA and Iran, the purpose of it was 
certainly to blunt their nuclear program. But we cannot deny 
that it has changed the order in the Middle East. Iran has been 
a pariah since 1979 because of its pursuit of nuclear weapons 
and other activity. And now it has gained status, at least, as 
a responsible nation-state, I guess, or how we are going to 
treat them by relieving sanctions. I thought that the vote on 
the JCPOA was a closer call than most. I ended up opposing it 
because of Iran's other activities that I did not think we 
could address. But can you talk a little about this? What is 
ahead, in terms of Iran and the change in the order in the 
Middle East? You mentioned before that we need to be careful 
and maintain our alliances with the Saudis, for example. How do 
we do that with this new order in the Middle East?
    Mr. Baker. We have to reassure, not just the Saudis, but 
our other allies in the Middle East, Israel and the other 
moderate Arab states of the Arabian Gulf, let them know we have 
still got their back, let them know that as we have said over 
and over, that this deal with Iran is nuclear only, does not 
have anything to do with anything else--it is too bad it does 
not, but it does not--and that we are going to be there, and 
that we are still going to oppose the participation in terror 
that Iran, as a state sponsor of terrorism, has lived with for 
some time. We need to reaffirm our support for them, and help 
prop them up because they are really not happy with us. They 
are not happy with us about this deal.
    When the question was whether we should go forward or not 
go forward, I was in favor of going forward because I did not 
think we could bring the Europeans along to maintain sanctions. 
You could argue that we never should have gotten into this 
negotiation. If you think that Iran's bad behavior outweighs 
the stability that we will get from 10 years of no nukes in 
Iran, then you would not have started this to begin with. I 
mean, we have freed up all those Iranian funds, whatever it is, 
a billion, billion and a half, and they are still free to do 
all the nasty things that they do in the region. And they are 
going to do them, in my opinion. But, when the JCPOA was before 
the Congress and before the country, I said that I was in favor 
of going forward with it because I did not think we could 
maintain the sanctions. I think the sanctions would have gone. 
Those sanctions were very effective in bringing Iran to the 
table.
    But now our obligation is to let our longtime allies in the 
region know that we are going to have their back and that we 
are not changing our view and our opposition to Iran's bad 
actions in the region.
    Senator Flake. Tom?
    Mr. Donilon. Secretary Baker described the determination 
that was seen by President Obama and the administration as the 
principal security threat in the region, and a very serious 
nonproliferation threat. It was at a stage where we had the 
opportunity to stop it. And we succeeded in a negotiation which 
essentially stops it for a decade and a half, and now with the 
decision that was made--and I think it was the right decision--
with respect to a really serious security issue that we face.
    It was not some sort of quixotic exercise of illusions 
about the nature of the Iranian regime. The purpose of it--as 
Secretary Baker said--was that it was a transactional, not a 
transformational, exercise, where we, in a transaction arms-
control setting, dealt with their nuclear program for an 
extended period of time. But we still face an Iran regime ----
    Senator Flake. Right.
    Mr. Donilon [continuing]. That is engaged in destabilizing, 
confrontational activities in the Middle East, and we have to 
confront it.
    So, a number of things. One is that there are two different 
pieces here. There are the four corners of the deal, which need 
to be enforced strictly. And there needs to be penalty for a 
diversion from the four corners of the deal. There are Iran's 
behavior outside the four corners of the deal, which is going 
to be much more problematic for us, going forward. And it needs 
to be confronted, and confronted directly in working with our 
allies and partners. And, third, we need to have in place a 
very serious deterrent. Iran needs to understand that if, in 
fact, they pursue a nuclear weapon, contrary to the 
undertakings that they took in connection with the deal, that 
the United States is prepared to take actions--any actions 
necessary, including military action--to keep them from doing 
so. This deterrence message is a very important message going 
forward, for the region and for the world.
    Senator Flake. Thank you.
    Secretary Baker, you will not remember, but I met you for 
the first time in 1989. I was in Namibia when they were going 
through that transition, and you came down, had negotiations 
with Shevardnadze, if I remember, during that time.
    Mr. Baker. Yes. That was Namibian independence.
    Senator Flake. It was. A lot has happened in Africa. We are 
having issues right now in a number of countries, East Africa, 
as well as Rwanda and Burundi, where the political leaders do 
not want to leave after their terms in office in the DRCr ight 
now. What are your thoughts with regard to the efficacy of 
unilateral sanctions or other measures that we could take? We 
have our influence; at times it is limited, but we do have some 
influence.
    Mr. Baker. Yes.
    Senator Flake. How should it be wielded?
    Mr. Baker. Unilateral sanctions are never as effective as 
multilateral sanctions. We all know that. But there may be a 
time for those, particularly looking at it through the paradigm 
of selective engagement. If we say, ``Okay, this is a matter 
that is of great interest to the United States, great concern 
to the United States. We need to be engaged.'' And how are we 
going to be engaged? We are going to be engaged by putting 
sanctions on these individuals who will not step down. You have 
got to weigh the pluses and the minuses, do a cost-benefit 
analysis, in effect. I mean, what are we going to gain from it, 
and what is it, if anything, that it will cost us?
    But, I do not see any reason why we should not do that if 
we think that is the right approach to take.
    Senator Flake. Right.
    Well, thanks. We will be holding some hearings in the 
subcommittee on the--that issue, so this is a good preview. So, 
thank you for your testimony.
    The Chairman. Thank you very much.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Thank both of you so much for being here and for your 
service to our country.
    Secretary Baker, thank you so much for recommending to 
President Bush that you not to go Baghdad. That decision stands 
the test of historical scrutiny.
    Mr. Baker. Yes, I do not think you were here, Senator, when 
I said, shortly after we got out of office, every time I would 
make a speech anywhere, people would say to me, ``Why did you 
guys not take care of Saddam when you had the chance?'' I do 
not get that question anymore.
    Senator Markey. Yes. You balanced American military might 
with wisdom.
    Mr. Baker. Yes.
    Senator Markey. And you brought that wisdom to that 
decision, and we thank you so much.
    Mr. Baker. Thank you.
    Senator Markey. And so, now, as we look at Iraq today, we 
can see the rising influence of al-Sadr. He was behind this 
Shi'a takeover of the parliament.
    Mr. Baker. Yes, yes.
    Senator Markey. Ostensibly, they are calling for reforms. 
But, those reforms include changing the role in which the 
Sunnis and the Kurds play in the government in that country. 
And we are already, basically, looking at Sunnis in Tikrit 
wondering when do the Shi'a ever let their control over that 
city go so that they can, once again, play a role in the 
government. And that would create problems for the takeover of 
Mosul, for example, so that the Sunnis in that city would say 
that it is worth it to fight the ISIS Sunnis, because we were 
given back our control over that city, and on and on.
    Could you give us your view as to the role that Iran is 
playing in this al-Sadr agenda in Iraq right now, and what the 
United States should be doing in order to push back so that the 
forces of inclusion--so, it is not just the Shi'a, but the 
Sunnis and the Kurds--retain roles that are prominent inside of 
the government?
    Mr. Baker. Well, again, Tom is probably more up to speed on 
this, because he has dealt with it more recently, but let me 
say--and this is not a political statement, Senator--but I 
think we left too soon. I had said that in response to an 
Afghan question. We were unable to negotiate a status of forces 
agreement. I do not know whether we should have been able to do 
it, or not, but we did not, and we left.
    I am, like Tom, very seriously concerned about the 
situation in Iraq today. And I think what you saw with Muqtada 
al-Sadr's takeover of the Green Zone was very, very disturbing, 
because it is more of what we saw before.
    Senator Markey. And do you see it as an extension of an 
Iranianay inside of Iraq?
    Mr. Baker. I do not think there is any doubt in the world 
that Iran is most important foreign-nation player in Iraq 
today. Not the United States. Nobody else. Iran. They have an 
influence on the Shi'a government, and have had since that 
government came to power. Of course, Iraq is a Shi'a majority 
state. And so, yes, I see a lot of Iranian influence.
    Senator Markey. So, what, from your perspective, should the 
United States be doing, building a coalition of other countries 
that have a stake in long-term Iraqi stability in order to make 
sure that this radical Shi'a perspective does not poison any 
ability to bring the Sunnis and the Kurds, long term, back to 
the table to have a united country?
    Mr. Baker. I do not know anything that we can do, other 
than continue to work with the Iraqi government. President 
Obama is incrementally increasing the presence of U.S. forces 
there. Tom probably knows the extent and degree of that better 
than I do. But, I think that is probably called for now. I hate 
to see it. I hate to see us going back in there. We are not 
going back in full bore.
    Senator Markey. If Maliki had allowed for 10,000 American 
troops to stay in Iraq ----
    Mr. Baker. Yes.
    Senator Markey [continuing]. How, in your opinion, do you 
think that ----
    Mr. Baker. I think that would have ----
    Senator Markey [continuing]. Have changed things?
    Mr. Baker [continuing]. I think that would have made a big 
difference.
    Senator Markey. Yes.
    Mr. Baker. I really do think it would have made a big 
difference. It would not have made a difference in whether or 
not the Maliki government did what they should have done, which 
was to give the Kurds and the Sunnis a fair shake. They have 
never done that. They have been very, very partisan ever since 
the beginning. And this new government is less partisan, I 
think.
    Senator Markey. Thank you.
    Mr. Baker. Let me turn to Tom.
    Senator Markey. Thank you for your wisdom. Thank you.
    Yes, sir.
    Mr. Donilon. Yes. Senator, a couple of things. Number one, 
the governance efforts in Baghdad are as important as the anti-
ISIS efforts outside of Baghdad, because the source of ISIS in 
Iraq is, basically, a failure of governance. It was a Maliki 
government undertaking an authoritarian sectarian approach to 
governing, politicizing the Iraqi Security Forces, which led to 
a great deterioration, obviously. And we can be successful with 
respect to our efforts--and I think we will be--in terms of 
rolling back ISIS and defeating them, but it will be a short-
term success if, in fact, we have a noninclusive government 
again in Baghdad, which will lead to the same kind of dynamic.
    Senator Markey. How concerned are you that Abadi, given 
this pressure that al-Sadr is now bringing, will not have the 
capacity ----
    Mr. Donilon. Well, we need ----
    Senator Markey [continuing]. As you are saying ----
    Mr. Donilon. Yes.
    Senator Markey [continuing]. To create a political space 
for the other religions in that country?
    Mr. Donilon. I think it is concerning, but we need to 
support him in that effort.
    The other pressure, of course, on the Baghdad government is 
low oil prices which is another whole ----
    Senator Markey. But, we cannot do anything about that, 
except lower them further when the fracking revolution 
continues in America. So, that is the more likely direction. 
Secretary Baker is an expert on that subject.
    But, are you optimistic, in other words, in terms of, 
ultimately, what will unfold in Iraq? And can we give the 
support to Abadi? Can he push back against al-Sadr? And does he 
have the will to push back against the Iranians, who actually 
have a stake in the instability in that country?
    Mr. Donilon. No, they have a big stake in it. At this 
point, you can only identify the policy priority. I cannot 
judge, from this distance, the likelihood of success. But, I do 
know what the right policy priority should be, and it is to 
support Abadi in having a more diverse and representative 
government.
    With respect to ISIS, what has happened, of course, is that 
ISIS has now entered a new and dangerous phase which is moving 
towards an external agenda outside the so-called caliphate 
area, the theater of war right now in Syria and Iraq. And so, 
we do not have any choice but to break the back of ISIS's 
perception of the narrative of success.
    Senator Markey. Because, otherwise, it is just repetition 
syndrome, and we go right back into the same cycle. I continue 
to believe that, unless we can think through and apply the 
right pressure, especially to the Iranians, on this Iraqi Sadr 
agenda, that, ultimately, all of our efforts are just not going 
to bear the long-term fruit that we are hoping for, for that 
region.
    Mr. Donilon. I agree with that.
    Senator Markey And again, I want to thank both of you for 
the great service to our country.
    Thank you,
    The Chairman. Very good.
    I know we are pressing up against a hard stop for Secretary 
Baker, so, Senator Coons, if you can go ahead, and we will end 
up after you, sir.
    Senator Coons. Thanks very much, Chairman Corker, Ranking 
Member Cardin, for convening this fascinating hearing.
    And I would like to thank Secretary Baker and National 
Security Advisor Donilon for your decades of very constructive, 
strong, and capable leadership in American foreign policy. This 
has been a fabulous hearing, so I appreciate your engagement 
with us.
    It has been remarked by many members of this committee, the 
current presidential election has seen candidates question 
long-held assumptions and commitments and principles that have 
underlain U.S. foreign policy for a long time, and some of the 
statements seem to have struck a chord with the American 
people. And this upcoming election season is an opportunity to 
reflect on the changing nature of the world, the challenges, 
threats, and opportunities we face, and to reassess our role in 
it.
    No matter the outcome of the election, the Senate, and this 
committee in particular, must continue to grapple with the 
trends that you have identified that are transforming the 
international system, and decide how we will defend our 
interests, engage with our allies, and advance our values.
    So, with that in mind, let me ask two just broad questions 
and then invite you to use the remainder of your time to speak 
to it as you will.
    First, the role of this committee and the Senate, more 
broadly. So, this is a process question. The Chairman and 
Ranking Member have done a great job of working, on a 
bipartisan basis, to strengthen the role of the Foreign 
Relations Committee, which, I will just posit, has waned 
somewhat as the general partisanship and division in the 
Congress has been a barrier to our being an effective player in 
foreign policy formulation. So, my first question would be: 
Tell me, in your experience, how you perceived the role of the 
Senate and what concrete actions you think we could take to 
strengthen the role of the Senate in policymaking and to be 
more relevant.
    And if you would reflect on that in answering two other 
questions, that would be great. How do we strengthen the 
international rules-based order that we established after the 
second World War that has been so important to security and 
prosperity? And how can we confront the fact that there is this 
whole belt of fragile countries across North Africa and the 
Middle East that runs, arguably, from Mali and Mauritania all 
the way through Syria and Iraq, out to Pakistan, in a way that 
will make a real difference?
    What is the role of the Senate? How do we strengthen it? 
And how do we strengthen the world order? And how do we address 
that whole region of instability in a meaningful way?--in the 
remaining 6 minutes.
    Mr. Baker. Well, I think that Chairman Corker has moved 
this committee back to the role that it played when J. William 
Fulbright and others chaired it. And I think that is good. I 
think that it is important. I first started testifying here 
before Foreign Relations when Claiborne Pell was the Chairman. 
And I have seen a lot of chairmen. I have seen Jesse Helms and 
Dick Lugar and a whole bunch of people. And John Kerry and Joe 
Biden.
    Senator Coons. Joe Biden, thank you.
    Mr. Baker. Yes. And it is a very, very important committee. 
If you are interested in foreign affairs--and this is the 
preeminent committee of the Congress on that issue. I am sure 
Ed Royce might not agree with me on that, but--they are both 
important. This is an extremely important committee. And I 
think Chairman Corker and Ranking Member Cardin are taking it 
back to what it used to be. And I am delighted to see that. 
That is the only comment I would make with respect to that.
    What was the second question, Senator?
    Senator Coons. What should we be doing to strengthen the 
international rules-based order that the United States really 
led, post-World War II.
    Mr. Baker. It is important that we live up to our financial 
responsibilities, that we pay our dues, yes, to the U.N., among 
others. But, I think one of the strengths of America, as I 
pointed out in my opening statement, is that we are the 
uniquely preeminent power in the world today, and, in my 
opinion, we stand to remain that. There is no real challenger 
to us for the foreseeable future.
    And one of the elements of our strengths is our leadership 
role in these international institutions, whether it is the IMF 
or the World Bank or the WTO or the U.N. And it is important to 
understand that these help America. They help us maintain 
security for the American people, and they strengthen America.
    So, I think that would be my answer to you on that.
    Senator Coons. Yes.
    Mr. Donilon. Senator, thanks for the question.
    On this committee, I would say three things. One is the 
coin of the realm is policy ideas, a deep exploration, and then 
coming forward with concrete approaches and ideas, is really 
important. This committee is doing that, in a variety of 
places. But, it is important to close the deal, to actually 
say, ``All right, we have looked at the problem, and we now 
have a set of possible recommendations and policy ideas that we 
want to put forward.''
    I think the second is to continue to be out in the field 
and to travel and to learn what is going on. There is no 
substitute for that, frankly, as you know very well. There is 
just no substitute for members of this committee going out and 
seeing what is going on, on the ground, and getting a feel for 
the history and the dynamics of places around the world.
    And the third is--keep in mind that both Secretary Baker 
and I am are creatures of the executive branch, so this is a 
statement against interest--you should hold the executive 
branch's feet to the fire. There are two different ways to do 
that. One is to press on the seams of foreign policy problems, 
where there seems to be a crack, or it does not quite fit 
together. And the other is, where there has been a problem, to 
actually do some investigative work and, again, come back with 
recommendations for how it might be done better in the future.
    Those would be the three things that I would say for the 
committee.
    With respect to the rules-based order, I think the most 
important thing we can do is to remind the American people, and 
our leaders, that these institutions have worked well for the 
United States, and they should be supported and continued.
    Mr. Baker. Right.
    Senator Coons. Well, as a member of the Appropriations 
subcommittee that funds the State Department and foreign aid, I 
will just mention, in closing, that Senator Graham has made a 
number of public comments, and we held a hearing on the 
question of fragile states. Many members, Republican and 
Democrat, were present. Senator Graham is, I think, 
appropriately, highlighting that the cost of restabilizing 
countries like Libya and Syria and Iraq, and continuing to hold 
together countries like Nigeria and Pakistan, is going to be 
substantial.
    Mr. Baker. Yes.
    Senator Coons. And we need to engage, in a bipartisan and 
thoughtful way, in advancing why it is in America's interests 
to prevent the collapse of larger and potentially more 
dangerous states.
    I am really grateful for your testimony today, and to the 
Chairman for convening this hearing.
    The Chairman. Thank you.
    Senator Cardin, for a closing comment.
    Senator Cardin. Yes. I want to thank both our witnesses 
again.
    But, you know, Iran has come up several times in our 
discussions, and I certainly agree with both of your statements 
about the fact that the United States must reassure our Gulf 
state partners and Israel of our commitment to their security.
    I do just make the observation--we all talk about being 
strong in regards to Iranian activities that are not directly 
related to the JCPOA. And I agree with that completely. I am 
concerned, though, that, with Iran continuing to say to the 
international community that the United States is not operating 
in good faith, when we are, whether we are going to be able to 
take firm actions against Iran for its non-nuclear activities 
and have the support of Europe. Because the connections 
currently being made in Europe, to me, could lead to a concern 
as to whether we can maintain that unity in a post-JCPOA world.
    Mr. Baker. That is an important issue that we need to 
confront, going forward, and starting right now. It is really a 
matter of diplomacy. And we ought to stay engaged on it, 
starting right this minute, talking to those allies, keeping 
them together, because we are not going to be able to do 
anything unilaterally on that problem.
    Senator Cardin. Right.
    Thank you both. Appreciate it.
    The Chairman. Well, we thank you both for your careers, 
outstanding public service to our Nation, your willingness, 
when the time calls, to come back and help us, as you have 
today. It has been a major contribution to us and to our 
country. And we thank you for that.
    And there will be questions that will come after this. We 
will close those as of the close of business Friday. If you 
could, within a reasonable time, attempt to respond to those, 
we would appreciate it.
    But, we cannot thank you enough for being here today, and 
for your outstanding public careers.
    With that, the meeting is adjourned.
    [Whereupon, at 12:01 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

           Response of Hon. James A. Baker III to a Question 
                     Submitted by Senator Tim Kaine


    Question.  What steps do you believe the Administration should take 
in its last months to steer the Israeli-Palestinian peace process back 
on track and gain momentum? How should a new Administration approach 
this issue with regard to American leadership in the conflict and where 
should the Israel-Palestine issue rank as a priority? How can we better 
work with the Arab states to support a renewed push for peace? Do you 
believe we can or should revive the 2002 Arab Peace Initiative?

    Answer. Timing is critical in making a diplomatic effort to promote 
Israeli-Palestinian peace. When I became U.S. secretary of state in 
1989, I saw the prospects for Israeli-Palestinian peace as very faint. 
In fact, a decade later I wrote: ``From day one of my tenure as 
secretary of state, the last thing I wanted to do was to take on the 
Middle East peace process.'' Three years later, however, after the 
United States had lead an international coalition that defeated Arab 
rejectionism in the Arabian Gulf by ousting Saddam Hussein's troops 
from Kuwait, the timing had greatly improved. America had defeated 
Iraq, one of the biggest military threats to Israel. America's global 
influence was on the rise, particularly in that part of the world. So 
the Bush-41 Administration was able to leverage support from both Arabs 
and Israelis for the Madrid Peace Conference, the first time Israel and 
all of its Arab neighbors had sat down to talk peace.
    Frankly, I have been disappointed with the lack of progress 
regarding a lasting Palestinian-Israeli peace. Shortly after President 
Barrack Obama took office in 2009, I thought that there was a chance 
that Israel and the Palestinians could strike a secure and lasting 
deal. President Obama had indicated a willingness to expend political 
capital to push for a two-state solution. Prime Minister Benjamin 
Netanyahu appeared to have the nationalist credentials and domestic 
support necessary to conclude such an agreement. And Palestinian 
President Mahmoud Abbas seemed to have the desire. The effort quickly 
faltered, in large part because of a swift deterioration in the 
relationship between President Obama and Prime Minister Netanyahu.
    Secretary of State John Kerry's later round of talks also 
foundered. Let me stress that I admire the Secretary's heroic, if 
ultimately unavailing, effort to broker a deal. But the pessimists who 
predicted failure from the very beginning were, I regret to say, right. 
Last year, of course, the Obama Administration concluded the nuclear 
deal with Iran. Whatever its merits, the deal and vociferous Israeli 
opposition to it have made it extremely difficult for the 
Administration to encourage Israel as part of any renewed peace 
process. Unsurprisingly, the Administration has apparently decided not 
to push hard for new talks.
    The timing today for steering the Israeli-Palestinian peace process 
back on track and gaining momentum is not particularly propitious, 
particularly given the polarization in Israeli politics with Netanyahu 
recently forming a more rightwing Likud coalition government that has 
key players opposed to a settlement with the Palestinians on the 
principle of land for peace. Meanwhile, President Abbas has been 
weakened over the years by his inability to achieve a peace agreement 
with Israel and by Hamas's challenges to his leadership. In short, the 
prospects for forward movement on Israeli-Palestinian negotiations are 
at this time bleak. At the same time, U.S. relationships with Israel 
and with moderate Arab states are strained, thus limiting America's 
critical role in the peace process.
    For the medium to long term, however, I remain cautiously 
optimistic--and I stress ``cautiously'' optimistic--because it seems to 
me that Israel's future absent a two-state solution could be very 
difficult at best.
    Some argue that now it is too late to create a two-state solution. 
Too many settlements, they say, have been built in the occupied 
territories. And the Palestinians remain hopelessly divided between a 
rejectionist Hamas and a weakened Palestinian National Authority. But 
the practical alternative to a two-state solution is continued conflict 
that will neither guarantee to Israelis the security they deserve nor 
deliver to Palestinians the state that they desire. Further, I fear 
that Israel risks losing either its Jewish identity or its democratic 
character as long as it occupies the West Bank because demographic 
changes could ultimately make keeping both impossible.
    And remember, although Prime Minister Netanyahu and his right-and-
center coalition may oppose a two-state solution, a land-for-peace 
approach has long been supported by a substantial portion of the 
Israeli body politic, by every U.S. Administration since 1967--
Republican and Democrat, alike--and by a vast majority of nations 
around the world.
    In this context, the Obama Administration in its remaining months 
in office has several options. It could do nothing in the hope that the 
next President might be able to use a ``clean slate'' to jump start 
talks. Or the Administration could table a ``framework'' for an 
Israeli-Palestinian settlement which outlines the contours of final 
status issues such as the 1967 borders, Jerusalem, refugees, and 
security arrangements. (See Rice University's James Baker Institute 
report in 2013.) Alternatively, it could lend its support to French 
initiatives such as an international conference and/or a UNSC 
Resolution on an Israeli-Palestinian settlement.
    In any case, the Administration should reiterate its strong support 
for the Arab Peace Initiative of 2002. It is a unique incentive for 
peace since it would include the recognition of Israel by its Arab 
neighbors and give President Abbas the Arab cover he needs on sensitive 
issues like Jerusalem. Netanyahu has indicated just recently that he 
supports a two-state solution and the Arab Peace Initiative subject to 
revisions. These may be more words than serious intent but the U.S. 
Administration should put him to the test.
    A new U.S. Administration should play a leadership role in the 
Israeli-Palestinian peace process because it affects U.S. national 
security interests in the region and since it is highly improbable that 
the parties themselves will be able to come to the negotiating table on 
their own volition.
    Further, the United States is best positioned to influence the 
parties toward negotiations because of its special relationship with 
Israel and its history of playing the role of an ``honest broker'' 
between Arabs and Israelis (e.g., 1979 Camp David accords and the 1991 
Madrid Peace Conference). Importantly, the Palestinian issue remains, 
despite current arguments to the contrary, a central issue in the 
Middle East that is a source of instability and conflict ( e.g., The 
Intifadas of 1987 and 2000 and the 2014 Gazan war) and serves sometimes 
as a strated justification for acts of terrorism. But for the U.S. to 
be successful it must act with strong political will and translate its 
words into deeds. This is no easy task. It is ultimately a question of 
U.S. leadership.
    In short, the Israeli-Palestinian issue should remain a priority in 
our Middle East policy.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
